<html>
<title> - LAW AND ORDER IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 110-408]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-408
 
                    LAW AND ORDER IN INDIAN COUNTRY

=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2008

                               __________

         Printed for the use of the Committee on Indian Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
41-590 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            TOM COBURN, M.D., Oklahoma
DANIEL K. AKAKA, Hawaii              JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 17, 2008...................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Kyl.........................................     5
    Prepared statement...........................................     6

                               Witnesses

Cowboy, Samson, Public Safety Director, Navajo Nation............    15
Enas, Eldred, Vice Chairman, Colorado River Indian Tribes........    18
Enos, Hon. Diane, President, Salt River Pima-Maricopa Indian 
  Community......................................................     8
    Prepared statement...........................................    10
Gordon, Hon. Phil, Mayor, City of Phoenix........................    31
    Prepared statement...........................................    33
Humetewa, Hon. Diane, U.S. Attorney, District of Arizona.........    25
    Prepared statement...........................................    28
Mendoza, Rod, Chief of Police, Town of Parker, Arizona...........    35
    Prepared statement...........................................    37

                                Appendix

Artman, Carl J., Assistant Secretary, Indian Affairs, Department 
  of the Interior, prepared statement with attachments...........    59
Eddy, Jr., Hon. Daniel, Tribal Chairman, Colorado River Indian 
  Tribes, prepared statement.....................................    57
Response to written questions submitted by Hon. Byron L. Dorgan 
  to Hon. Diane Humetewa.........................................    70
Rhodes, William R., Governor, Gila River Indian Community, 
  prepared statement.............................................    67
Shirley, Jr., Hon. Joe, President, Navajo Nation, prepared 
  statement......................................................    49


                    LAW AND ORDER IN INDIAN COUNTRY

                              ----------                              


                         MONDAY, MARCH 17, 2008


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                     Scottsdale, AZ
    The Committee met, pursuant to notice, at 1:30 p.m. at the 
Salt River Pima-Maricopa Indian Community Center, Scottsdale, 
Arizona, Hon. Byron L. Dorgan, Chairman of the Committee, 
presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I'm Senator Byron Dorgan. I'm 
Chairman of the Indian Affairs Committee of the United States 
Senate.
    I'm joined by Senator Jon Kyl, the Senator from the State 
of Arizona, and I'm very pleased to be here on this Reservation 
and with my friend, Senator Kyl.
    This is a hearing of the Indian Affairs Committee, and this 
hearing is on the subject of law enforcement.
    And it's a very complicated, controversial issue but one 
that I think is absolutely necessary that we deal with and 
attempt to understand and attempt to solve some of the problems 
that exist with respect to law enforcement on Indian 
Reservations.
    Before we begin the hearing, I'd like to call on the Chief 
Judge of our host tribe, Delbert Ray, to offer a traditional 
prayer. Mr. Ray?
    [Prayer held.]
    The Chairman. Let me say, first of all, I'm honored to be 
here on the Salt River Pima-Maricopa Indian Reservation, to be 
a part of your community today, and convene this hearing.
    I want to make a couple of comments, then give an opening 
statement, then call on my colleague, Senator Kyl, for an 
opening statement, after which we will hear from witnesses and 
ask questions.
    First, I want you to know that when I became Chairman of 
the Indian Affairs Committee, I made it the highest priority of 
my work to try to move the Indian Healthcare Improvement Act.
    It has been 18 years since that was dealt with on the floor 
of the United States Senate and approved, and I'm proud to tell 
you that at long last, at long, long last, the United States 
Senate has passed the Indian Healthcare Improvement Act within 
the last three weeks, and that is I think a significant 
victory.
    The Committee considers it its top priority. We will now 
work to go to Congress with the U.S. House when they have 
completed their bill, which we expect in the next several 
weeks, and we are going to get this done.
    Law enforcement is a serious issue. So, too, is the issue 
of Indian healthcare, and I tell you about that progress 
because, No. 1, I'm very proud of it and, No. 2, Senator Kyl 
played a significant role in it.
    Senator Kyl and I met last November and then talked again 
in December and developed a strategy and a plan.
    And Senator Reed, to his credit, allowed us to get to the 
floor of the United States Senate and stay there until we got 
it done.
    Senator Kyl played a pivotal role in helping me limit 
amendments and getting the votes, and so I'm proud to be here 
in his state to be able to come and thank you for making some 
very significant progress. So Senator Kyl, thank you very much.
    I do want to make an opening statement and then call on 
Senator Kyl for his opening statement. Perhaps before opening 
statements, let me do one other thing.
    We have some staff with us today, and I want to identify 
them for you because they do a lot of work on all of these 
issues. They were also instrumental in allowing us to get the 
Indian Healthcare Improvement Act completed.
    The Staff Director of the Indian Affairs Committee is 
Allison Binney. Allison, would you identify yourself? Stand up.
    The Policy Director is John Harte. John is behind us. They 
are both really skilled attorneys and terrific staff members of 
this Committee.
    Senator Murkowski's staff director on the Indian Affairs 
Committee is David Mullon, and David has done a great job and 
served in that position with Senator McCain as well when he was 
Chairman of this Committee, and Ryan Smith is here with Senator 
Kyl.
    Senator Kyl, before you make a statement, did you have any 
comments?
    Senator Kyl. That's okay.
    The Chairman. Let me make an opening statement that 
describes why we're here, and it's a couple pages in length. 
But I think we need to set the stage, so I want to tell you 
what we are trying to do.
    This is the fourth hearing that we have held to examine the 
issue of law and order in Indian Country. We have in our 
previous three hearings I think discovered that there is a very 
severe public safety crisis in Indian Country.
    Today's hearing is going to focus on what are the proposed 
reforms and changes; but before we discuss the reforms, I want 
to talk about what we have been learning.
    There is a long-standing, and I think in some cases, life-
threatening crisis with respect to the issue of law enforcement 
on Indian Reservations.
    One cause and the most obvious cause for me to understand 
is just the lack of law enforcement officials. I mean, we have 
about 40 percent fewer law enforcement officials than we ought 
to have to deal with the sheer size of the territory.
    I mean, I know of circumstances where someone calls in a 
crime being committed and urgent need for a response, and the 
law enforcement person on duty responds as fast as they can 
immediately, and it takes them an hour and a quarter to get 
there.
    Now that's on one of my Reservations. I mean, you could 
understand when you have got a million acres or more and one or 
two people on duty, you can understand the circumstances.
    Tribal detention facilities and jails are in shambles. I 
have a couple of photos you will see of things dripping from 
the ceiling. If you have toured any of these facilities, you 
know exactly what I'm talking about.
    The lack of detention space means that in many cases it's a 
catch and release system for those who commit crimes, with only 
the most violent offenders ultimately being incarcerated and 
other offenders released to offend again.
    Domestic violence and sexual assaults have reached epidemic 
proportions on some Reservations. Two out of every five Native 
women will be victims of domestic violence, we are told, in 
their lifetimes; and one in three will be a victim of a sexual 
assault in their lifetime. Now those are stark, difficult 
numbers just to comprehend.
    We have heard testimony that some tribal police are forced 
to prioritize their rape cases and take only those that will 
come with a confession. In other cases, they are just not dealt 
with.
    Teen suicide on Reservations is twice the national average 
in the Northern Great Plains. In some areas, teen suicide is 
ten times the national average.
    Methamphetamine has plagued a lot of tribes and 
communities, and the addiction rate is astronomical. We have 
evidence that we have meth dealers moving from reservation to 
reservation trying to addict Native Americans and making 
certain that Native Americans are not in possession of the 
meth, if there is an arrest, because they feel that if they are 
non-Indian on the Reservation and are holding meth, they cannot 
be arrested.
    We had a tribal chair last year testify that of 25 pregnant 
women on her Reservation--she is the tribal chair. Twenty-four 
of 25 pregnant women tested positive for methamphetamine. That 
is a crisis.
    Now, I could go on and on about the bad news. The question 
is: What kind of good news can we create. How do we address 
this.
    On November 7, 2007, we released a concept paper. I asked 
John Harte, a very skilled attorney, has a lot of experience on 
all of these issues, he comes from a tribe in New Mexico. I 
asked John Harte to go around the country and consult with 
tribes, and he did.
    One of the things on this Committee that's very important 
to me is that we don't do anything without consultation with 
tribes.
    So we released a concept paper on law enforcement. This 
isn't a paper we are trying to say, ``Here it is, take it or 
leave it, here's what I believe.''
    It's a paper that addresses a whole series of concepts that 
might or might not work, but things that we think would be 
helpful, some very controversial because this gets into areas 
of sovereignty and jurisdiction and so on.
    We need to find a way to weld together the combined efforts 
of state government, local government, the Federal Government, 
and tribal government to try to deal with law enforcement.
    Tribes have limited authority at the local level to deal 
with violent crimes. They can sentence offenders to no more 
than one year incarceration. That's limited authority.
    As a result, victims in Indian Country, they rely on the 
Federal Government, specifically the FBI and the United States 
Attorney's Office, to investigate and prosecute and, often, the 
cases there are declined.
    We don't have the declination rate, but we understand 
it's--very often it is not the top of the agenda for the U.S. 
Attorney's Office.
    I'm not tarnishing the U.S. Attorney's offices here. Many 
of them do a remarkable job; some not. But in any event, the 
tribal government is certainly not in control of this because 
they don't have the capability.
    The issue of tribal/state cooperative agreements is an 
important issue, the issue of local tribal authority.
    Tribal police, for example, often don't have the authority 
and the tools to effectively secure tribal communities and so 
federal laws make it difficult for officers to access federal 
criminal history databases.
    Now think of that. A tribal police officer making an arrest 
has difficulty accessing the national criminal history 
databases.
    They don't know who they are dealing with. They can't 
access that as a law enforcement official. So these are just 
some of the things we need to fix.
    The jurisdictional questions are real and serious. We are 
talking about tribal jurisdictions. Those are always 
controversial issues.
    Current law fails to provide the local tribal government 
control over crimes in their community because, you know, the 
fact is many misdemeanor crimes, domestic violence, simple 
assault, and so on simply go unpunished because the resources 
don't exist to handle it.
    Or a non-Indian coming on the Reservation--by the way, 70 
percent of the crimes against Indian women on Reservations are 
committed by non-Indians, and the law enforcement on 
Reservations has no jurisdiction to make that arrest and 
prosecute.
    And so those are the issues. There are a lot of them. They 
are controversial and difficult, but the fact is I'm here 
because we need to fix it. We need to find a way to fix it.
    I'm interested in your ideas. What are the nuggets of ideas 
that you think could advance the interest of improving law 
enforcement on Indian Reservations?
    Who should do it? What's the Federal Government's 
responsibilities? What's the State Government's 
responsibilities, local government?
    And what can we do to consider things like cross-
deputization and other things that some feel are controversial 
issues, but I feel in many ways are going to be necessary to 
really put this together.
    So that's why I'm here, and that's a short speech. I won't 
give another speech today because I'm here to listen.
    But as I said, I'm very pleased that our colleague, Senator 
Kyl, from your home state of Arizona is here, and I'm pleased 
with the role that he has played on Indian healthcare 
especially and his interests because Senator Kyl came to me and 
asked if we could hold a hearing on law enforcement here in 
Arizona.
    I'm pleased at his interest in this issue as well because 
it's hard to find good help in the United States Senate, and 
Jon Kyl is good help. So maybe together he and I can effect 
some changes that will save lives and make life much, much 
better on Indian Reservations.
    Senator Kyl.

                  STATEMENT OF HON. JON KYL, 
                   U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman. Welcome to Arizona, 
and thank you for all that you have done for the people in 
Indian Country throughout your chairmanship, especially holding 
this hearing on this important issue.
    It was ten years ago almost to the week that I held a 
hearing--actually it was in Phoenix--and some of you in this 
room I think were at that hearing on the same subject, and it's 
sad to say we have not made much progress in the meantime.
    I also want to commend you again for the Indian health 
legislation. Without Senator Dorgan's long, hard work on the 
issue, that would not be reality.
    And he's right, that several times he had to go to a 
majority leader and say: Don't think we can't get this done. 
Please schedule it for the hearing. Believe me, we can make it 
happen.
    And through his hard work and cooperation with a lot of 
people on both sides of the political aisle, it was possible to 
get it done. So I really appreciate his leadership and his 
interest in this important subject.
    I also want to thank President Enos and the Salt River 
Pima-Maricopa Indian Community for hosting this event and to 
congratulate Diane Humetewa, our United States Attorney for the 
District of Arizona, the first Hopi woman ever to be, and in 
fact I believe the first Native American woman ever to be a 
United States Attorney, and we are very proud of that fact here 
in the state of Arizona and we look forward to hearing from her 
later.
    Arizona is the home to more than twenty Indian tribes, and 
they all face unique enforcement issues.
    One challenge common to all of them is the lack of federal 
funding to meet their basic needs, stemming primarily from the 
fact that they are stretched so thin because of the large land 
area involved.
    The United States Government has a trust responsibility to 
provide public safety in Indian Country, and that means helping 
provide the resources that are necessary, and yet the Federal 
Government has consistently fallen short in meeting that 
obligation.
    The picture that Senator Dorgan had on the screen a little 
while ago of leaks in the roof of the Tuba City jail right 
there, I was there.
    In fact, I was invited to come--I'm sure they arranged 
this, Byron. But I arrived on a Saturday night and it was 
raining, so I saw firsthand that, yep, it leaks.
    But more than that, the facilities are not adequate either 
in the sense of their quality or in numbers to take care of the 
people involved.
    In fact, I'm told in one case, and there are many such 
cases, last year where a woman from Chinle on the Navajo Indian 
Reservation was beaten severely.
    Her assailant had twice been arrested for similar 
violations, but there simply wasn't any space to hold him. He 
was released and he beat her again so badly that she had to be 
hospitalized.
    And this happens over and over and over again, and it's 
that failure to meet our responsibility that causes us to be 
here today.
    Of course this is true throughout the country, this lack of 
resources to prosecute or to arrest and prosecute and detain 
criminals, but as a result a public safety crisis exists in 
Indian Country. And it's exacerbated, as Senator Dorgan said, 
by the complex Indian criminal jurisdiction maze.
    The proposals being discussed today are the first step in 
addressing conditions that threaten law and order in Indian 
Country.
    While some of the proposals need to be considered more 
carefully, it's important that we at least begin a dialogue, 
and that starts with getting the ideas from all the folks who 
live on the Reservations here and are impacted firsthand.
    One area that I hope is highlighted during the hearing are 
the detention facilities because that's clearly an area where 
the need has been established and we should be able to get 
resources for it fairly quickly.
    Mr. Chairman, I have got a much more lengthy statement I'd 
like to put in the record, but I think it's important for us to 
hear from the witnesses now so, again, I thank all of you who 
are present, and I thank you again for conducting this 
important hearing.
    [The prepared statement of Senator Kyl follows:]

     Prepared Statement of Hon. Jon Kyl, U.S. Senator from Arizona

    Mr. Chairman and members of the Committee, thank you for holding 
this hearing on this important issue. I also want to thank President 
Enos and the Salt River Pima-Maricopa Indian Community for hosting this 
hearing.
    Arizona is home to more than 20 tribes, all of which face their own 
unique set of law enforcement issues. One challenge common to nearly 
every tribe in Arizona is a lack of federal funding to meet basic law 
enforcement needs. The United States has a trust responsibility to 
provide public safety for Indian country. The Federal Government, 
however, consistently falls short of meeting this obligation. Indeed, 
tribes throughout the United States lack staff and resources to arrest, 
prosecute, and detain criminals. As a result, a public safety crisis 
exists in Indian country. This crisis is often exacerbated by the 
complex Indian criminal jurisdiction maze.
    The proposals being discussed today are the first step in 
addressing the conditions that threaten law and order in Indian 
Country. While some of the proposals need to be considered more 
carefully, it is important that we, at least, begin a serious dialogue 
on these issues.
    One area that I hope is highlighted during this hearing is Indian 
detention facilities. According to a Justice Department study, American 
Indians experience violent crime at a rate more than twice the national 
average, yet tribal detention facilities have been grossly under-funded 
and are in an appalling state of disrepair. A 2004 report by the 
Inspector General confirms that Indian detention facilitates are 
``Neither Safe Nor Secure.'' The report states that ``it became 
abundantly clear that some facilities we visited were egregiously 
unsafe, unsanitary, and a hazard to both inmates and staff alike. BIA's 
detention program is riddled with problems . . . and is a national 
disgrace.''
    I have visited Indian detention facilities in Arizona and have 
witnessed firsthand their deplorable and unsafe conditions. The state 
of these facilities has negatively affected many of the Indian tribes 
in Arizona. Take, for example, the Navajo Nation. Itis approximately 
the size of West Virginia and has a population of more than 170,000. 
Because a number of the Nation's detention facilities have been closed 
for health and safety reasons, it only has bed space for 103 inmates. 
This incredibly low number, which represents only a fraction of its 
needs, leads to severe overcrowding.
    The Navajo Nation has stated that overcrowded jails cause the 
majority of tribal court judges to defer or reduce sentences. In many 
cases, the Nation has no choice but to release and return serious 
offenders to their community in a matter of hours.
    Unfortunately, this sometimes leads to tragic results.
    For instance, according to the Chinle Police Department, in early 
2007, a Navajo man was arrested for the third time for domestic 
violence and aggravated assault of his wife. Due to a lack of jail 
space, the offender was released to make room for new arrestees. The 
offender immediately returned home and beat his wife so brutally she 
had to be hospitalized.
    These problems are not unique to the Navajo Nation. Indeed, many 
other tribes in Arizona are facing similar problems and are forced to 
release offenders prematurely.
    When offenders are released, it is nearly impossible for tribes to 
protect their communities and enforce the rule of law. As the Nation 
has pointed out, the current system creates a revolving door for 
offenders, which leads to a complete lack of respect and disregard for 
the tribal criminal justice system. More important, it results in 
unsafe communities in and around Indian country.
    The Bureau of Indian Affairs and Justice Department can take a 
number of actions to improve the conditions of tribal detention 
facilities, though whether these conditions improve largely depends on 
the level of federal funding for tribal jails.
    Consequently, I have advocated increased funding for tribal 
detention facilities in Arizona. Thankfully, the appropriations 
committees have recently recognized the deplorable conditions of Indian 
detention facilities and recommended increased funding for Indian 
jails. The Administration, however, must also make this issue a 
priority and include sufficient funding in its budget to address this 
crisis in Indian country. If immediate action is not taken, crime rates 
on the reservation will continue to remain high and the communities in 
and around the reservations will be neither safe nor secure.
    Once again, I commend the Chairman and members of the Committee for 
focusing their attention on Indian law enforcement. I hope that the 
hearing today will help underscore the issues that I have discussed and 
will bring about thoughtful change to address this public safety crisis 
in Indian country.

    The Chairman. Senator Kyl, thank you very much. We are 
going to hear from two panels of witnesses today, and we will 
include the formal statements in their entirety offered by the 
witnesses, and we will ask each of the witnesses to simply 
summarize their testimony.
    The first panel is going to be the Honorable Diane Enos, 
the President of the Salt River Pima-Maricopa Indian Community 
and, again, we appreciate her hosting us today, Madam Chair.
    Second would be the Honorable Vice-Chairman Eldred Enas, 
the President of the Navajo Nation of Window Rock, Arizona, who 
may come forward.
    And third, the Honorable Samson Cowboy. And Mr. Cowboy, I 
don't have your title. Mr. Cowboy, you are with the Navajo 
Nation, the Navajo Public Safety Director.
    Let me say that the second panel will be the new U.S. 
Attorney of Arizona, the Mayor of the City of Phoenix, and then 
the Chief of Police of the Town of Parker.
    So we are trying to get perspectives from a lot of 
different areas and levels here, and I think this will be an 
interesting opportunity to learn.
    Madam Chairwoman, thank you very much for hosting us. Why 
don't you proceed. And if you want to pull those microphones 
down just a bit, I think they are probably already on.

   STATEMENT OF HON. DIANE ENOS, PRESIDENT, SALT RIVER PIMA-
                   MARICOPA INDIAN COMMUNITY

    Ms. Enos. Good afternoon. My name is Diane Enos. I am the 
President of the Salt River Pima-Maricopa Indian Community.
    I would like to welcome you to the community on behalf of 
the people of the community, and I want to thank you also, Mr. 
Chairman, Senator Dorgan; the Senate Committee on Indian 
Affairs; and members of the Committee for scheduling this 
meeting here at Salt River.
    I would also like to thank Senator Jon Kyl for his presence 
here today. Both of your presence speaks highly of your 
commitment to law enforcement issues in Indian Country.
    For the record, I have submitted a copy of my testimony 
which describes in detail our issues and recommendations 
regarding law enforcement in Indian Country.
    I would like to thank the Committee for your exemplary work 
on the law enforcement concept paper, and today I will focus my 
comments on the jurisdictional component of your paper.
    We strongly urge Congress to restore criminal jurisdiction 
on a government-to-government basis, and the criminal 
jurisdiction over non-Indians should be tribal government.
    The viciousness and frequency of crimes committed today by 
both non-Indians and Indians has increased greatly since the 
Oliphant, Wheeler and Duro Era.
    Weapons have become more prevalent and easily accessible, 
and society has become more mobile. If you recall, Salt River 
was the site of the Duro versus Reina case which called for a 
Congressional act to fill a jurisdictional void over nonmember 
Indians. The void exists with regard to non-Indians.
    An example of this is the increasing frequency of drive-by 
shootings. In January of 2008 alone, there were 12 drive-by 
shootings of residences, and in February there were 5 drive-by 
shootings which included that on a church. Legislation to make 
drive-by shootings a federal crime should be introduced with 
commensurate punishment.
    The Salt River Pima-Maricopa Indian Community is located 
within the Phoenix metropolitan area that has a population of 
approximately three million people with three major freeways.
    Two of those freeways are within the Salt River Pima-
Maricopa Indian Community. The freeways bring traffic levels in 
excess of 175,000 vehicles and 100,000 people and more, each 
day throughout our community.
    A dialogue has begun regarding the need for tribes to have 
criminal jurisdiction over non-Indians. It is not a matter of 
solely wanting to exercise sovereign authority over our own 
territory, although that should be understood and appreciated. 
Rather, to me, it is the most basic matter of maintaining the 
peace, protecting people and their futures.
    An example of some of the issues that we face here at Salt 
River can be borne out in some of the statistics. These are 
included in my record--in my testimony record.
    For example, in the first quarter year, October of 2007 to 
December 2007, there were 18,220 calls for the Salt River 
Police Department.
    There were 5,041 reports. There were 105 DUI arrests, 2,222 
citations, and 18 narcotics arrests. Keep in mind, this is only 
from October to December. Two months.
    During that period of time, Salt River detectives seized--
there were on call 65 times and they seized 1,728 items of 
evidence.
    There was 20 firearms seized of all types--rifles, AK-47s, 
SKSs, shotguns, pistols, etc. There were 28,423 telephone calls 
to the Salt River Police Department in that short two month 
period.
    Now as far as the Indian and non-Indian arrests, I have 
some statistics. I presented these statistics to the National 
Congress of American Indians when the hearing was held about 
two to three weeks ago in D.C.
    And just to pull out some of the significant numbers in 
those, for the calendar year of 2007, in February of 2007, 
there were 142 Native arrests and there were 215 non-Native 
arrests in Salt River.
    Another example. More times than not, the number of Native 
arrests surpassed the number of non-Native arrests.
    For instance, in May of 2007, there were 228 Native arrests 
and 152 non-Natives. Now take that to October of last year. 
There were 165 Native arrests, but for that same month there 
were 245 non-Native arrests by the police department.
    In November, there were 160 Native arrests in Salt River. 
That same month, there were 242 non-Native arrests. In 
December, 183 Native arrests as opposed to 301 non-Native 
arrests in Salt River.
    Our statistics also bear out that every 19 hours, there is 
a crime of domestic violence. Every 71 hours, there is a crime 
against a child for abuse, neglect, or molestation.
    There is an accident, traffic, that occurs every 7 hours. 
Last calendar year in 2006, there was 1,281; in 2007, I believe 
there was 1,090. I give you these statistics as an indication 
of the law enforcement issues facing the police officers daily.
    We have 117 sworn officers. Our population is approximately 
on the Reservation 5,000 members--total membership is 8,500. A 
lot of those live off the Reservation.
    Compounding the issue is the imposition of legislation such 
as the almost unfunded mandates of the Adam Walsh Act and the 
Violence Against Women mandate. Tribes must create a sex 
offender registry, yet tribes do not have the authority to 
arrest or detain non-Indians.
    In addition, not all tribes have access to the National 
Crime Information Center which provides law enforcement 
agencies with access to nationwide criminal data.
    We propose that a pilot project be considered and funded 
for a certain number of tribes to exercise criminal 
jurisdiction over non-Indians.
    In my testimony we outline the purpose, need, scope, 
duration, criteria, evaluation, retrocession, and termination 
of such a pilot project. I would like to highlight the 
criteria.
    The first point is that a tribe must demonstrate capability 
to provide adequate law enforcement services. I mentioned that 
our community has a 117 sworn law officers, peace officers.
    Another criteria is that they must enter into 
intergovernmental agreements.
    Third criteria, have existing Special Law Enforcement 
Commission Cards; and the fourth criteria is that they have an 
above average record for past seven years in providing police 
services.
    The evaluation tools and schedules will be developed and 
implemented on a regularly scheduled basis. At the very least, 
in one-year intervals a process would be established to allow a 
tribe to retrocede jurisdiction to the Federal Government.
    A criteria for termination would be established to 
determine when a tribe is no longer able to consistently do the 
project.
    As a side note here, we also recommend that legislation be 
introduced making drive-bys a federal crime with punishment 
commensurate with attempted homicide. In Salt River alone, we 
have had 12 drive-by shootings in 2008 in January.
    Thank you again for the opportunity to testify on such a 
critical matter that involves the health, safety, and peace not 
only of our community members but the lives of all those 
guests, customers, visitors, through our community. I look 
forward to answering any questions that you may have regarding 
my testimony.
    [The prepared statement of Ms. Enos follows:]

   Prepared Statement of Hon. Diane Enos, President, Salt River Pima-
                       Maricopa Indian Community

    Good afternoon! My name is President Diane Enos of the Salt River 
Pima-Maricopa Indian Community (SRPMIC). I would like to thank Chairman 
Byron Dorgan of the Senate Committee on Indian Affairs and members of 
the Committee for scheduling this hearing and I would also like to 
thank Senator Jon Kyl for his presence here today. What you've proposed 
through your Indian Country Law Enforcement Concept Paper is the first 
step and we look forward to its introduction, approval by the United 
States Congress and becoming law upon the President signature for this 
critical piece of legislation.
Background
    The Salt River Pima-Maricopa Indian Community was established by 
Executive Order on June 14, 1879 by President Rutherford B. Hayes and 
is located in Maricopa County, aside the boundaries of the City of 
Mesa, Tempe, Scottsdale, Fountain Hills, and our neighbors to the east 
is the Fort McDowell Yavapai Nation. The population of the SRPMIC is 
approximately 8,000 with a land base of 53,600 acres and we maintain 
19,000 acres as a natural preserve.
Snapshot of SRPMIC Law Enforcement Personnel
    The SRPMIC is currently staffed by one hundred and seventeen (117) 
Police Officers with eleven more in the State Police Academy. In 
addition, we have thirty-nine (39) Civilian positions that provide 
staff support to our Police Officers. Due to the surrounding municipal 
governments of Scottsdale, Mesa, Tempe and Fountain Hills we have 
approximately one hundred thousand (100,000) persons and one hundred 
seventy-five thousand (175,000) vehicles that travel daily throughout 
the SRPMIC.
Law Enforcement Concept Paper
    I would like to address several components of your Concept Paper 
and I will also address our unique situation.
  1. Jurisdiction
  <bullet> Restore criminal jurisdiction on a government-to-government 
        basis.

        Criminal jurisdiction over non-Indians should be restored to 
        Indian Tribal governments. The intent in the passage of the 
        Adam Walsh Act and the Violence Against Women Act both 
        recognize tribal involvement and mandate tribes to comply with 
        certain requirements, such as maintaining a sex offender 
        registry of all offenders, yet tribes do not have the authority 
        arrest/detain non-Indians. Major freeway systems and traffic 
        congestion bring non-tribal members through our Community in 
        large volumes. We need to equip our Police Officers with the 
        necessary laws, tools, and protection to do their job in 
        protecting our Community members.
 Recommendation--Jurisdiction

        1. To create a law making drive-by shoots a federal crime with 
        commensurate sentencing.

        2. To share Indian Crime Data Reporting with states and other 
        tribes.

        3. To establish and fund a Law Enforcement Pilot Project.

Indian Country Law Enforcement Pilot Project
    The viciousness and frequency of crimes committed today, by both 
non-Indians and Indians has increased greatly since the Oliphant, 
Wheeler and Duro Era. Weapons have become more sophisticated and 
available; drug and alcohol use has become more prevalent and easily 
accessible; and society has become more mobile.
    The intensity and repetition of crime and its after affects has hit 
hard in Indian Country and the Salt River Pima-Maricopa Indian 
Community (SRPMIC) is no exception. In fact, because the SRPMIC, is 
located within the Phoenix Metropolitan area that has a population of 
over three (3) million persons with three major freeways within the 
SRPMIC that bring traffic levels in excess of one hundred seventy-five 
thousand (175,000) vehicles and one hundred-fifty thousand (150,000) 
persons a day, we experience even more crime committed by non-Indians. 
Tribes are scrambling to provide adequate law enforcement services to 
the community as a whole. The glaring gap in those protections is the 
lack of criminal jurisdiction over non-Indians who are free to enter 
the SRPMIC and who have become aware of the lack of criminal 
jurisdiction.
    In earlier times, the common thought was that ``Indian Country is 
no-man's land; Indian people seek haven on the reservation.'' Now, the 
tables have turned: Indian Country is perceived as a safe haven by non-
Indian criminals.
    Compounding the issue is the imposition of legislation such as the 
(almost-unfunded) Mandates of the Violence Against Women Act (VAWA) and 
the Adam Walsh Act (AWA). Tribes are placed in a position of having to 
police non-Indian activity without having enforcement authority. There 
are still the ``less serious'' crimes that pose safety, health and 
peace concerns.
    A lack of criminal jurisdiction over the non-Indian criminal 
segment of the population places the lives and property of the SRPMIC 
and its members in jeopardy as well as the non-Indian population who 
are here as visitors, employees, residents, students and customers. The 
Scottsdale Community College is located within the boundary of the 
(SRPMIC). It also sends a clear message to the non-Indian criminal 
element: the morass of jurisdictional lines complicates, and frequently 
obstructs, adequate enforcement of law.
    A dialogue has begun regarding the need for Indian tribes to have 
criminal jurisdiction over non-Indians. It is not a matter of wanting 
to take a political stance and exercise sovereignty. Rather, it is the 
most basic matter of maintaining the peace, protecting people and their 
future.
    While many tribes may not want, or are in no position to exercise 
such jurisdiction, there are some tribes that feel the need more than 
the desire to exercise criminal jurisdiction over non-Indians.
    Towards that end, the Salt River Pima-Maricopa Indian Community 
proposes that a pilot project be considered for a certain number of 
tribes to exercise criminal jurisdiction over non-Indians. Criteria 
would be established on a government-to-government basis similar to 
self-governance statutes and regulations.
Pilot Project Purpose
    The Purpose of the Pilot Project is:

  <bullet> To enhance the safety of SRPMIC members, visitors, 
        employees, non-SRPMIC member residents and law enforcement 
        staff; and

  <bullet> To keep the peace within the boundaries of the SRPMIC.

  <bullet> To protect the lives and property of SRPMIC and its members.

  <bullet> To provide a continuum of law enforcement services with 
        adjacent jurisdictions.

Pilot Project Need
    The following examples provide for you a snapshot of gaps in Law 
Enforcement Authority over non-Indians:

  <bullet> Domestic Violence--Non-Indian (suspect) assaults American 
        Indian victim who are or were in a relationship (standard 
        domestic violence), the suspect cannot be charged with State 
        crime of domestic violence since the victim is American Indian; 
        even though all Salt River Police Officers are State Certified 
        Police Officers. The suspect may be charged with a Federal 
        Crime since all Salt River Police Officers now have the Special 
        Law Enforcement Commission Cards (SLEC), but only if the 
        injuries are very substantial. The suspect may now only charged 
        with only disorderly conduct.

  <bullet> Assault--A non-Indian suspect assaults an American Indian 
        victim and the suspect cannot be charged with State crime of 
        assault because the victim is American Indian; even though all 
        Salt River Police Officers. The suspect may be charged with a 
        Federal Crime since all Salt River Police Officers now have the 
        Special Law Enforcement Commission Cards (SLEC), but only if 
        the injuries are very substantial in nature. If not, the 
        suspect may be charged with only disorderly conduct.

  <bullet> Burglary--A non-Indian suspect burglarized an American 
        Indian residence and the suspect cannot be charged with a State 
        crime of burglary because the victim is American Indian; even 
        though all Salt River Police Officers are State Certified 
        Police Officers and the all of our Officers are federally 
        certified with the SLEC cards, the Federal charges would not 
        apply. The suspect may only be charged with trespass.

  <bullet> Stolen Vehicles--A non-Indian suspect steals an American 
        Indian's vehicle, the suspect cannot be charged with a State 
        Crime of Vehicle Theft (if apprehended within the SRPMIC) 
        because the victim is an American Indian, even though all Salt 
        River Police Officers are State Certified Police Officers and 
        all of our Police Officers are federally certified with the 
        SLEC cards. In the SRPMIC experience, federal charges would not 
        apply. The suspect may not be charged with any crime.

    All of the examples are compounded by the Salt River Police 
Department statistics and data, which include the following:
SRPMIC Police Department Reports
    In 2007 a total of one hundred two thousand and six hundred seven 
(102,607) police reports have been filed. Based upon our 2007 Salt 
River Uniform Crime Reports (UCR), we know that domestic violence 
occurs every nineteen hours (19) for a total of four hundred fifty-one 
(451) crimes, Criminal damage occurs every nineteen (19) hours with 
four hundred fifty-two 452 crimes, a crime against a child occurs every 
seventy-one (71) hours for one hundred-twenty four (124) crimes and one 
accident occurs every seven hours (7) hours for one thousand two 
hundred eighty-one (1,281) accidents/crashes.
SRPMIC Domestic Violence
        2008: Thirty-two (32) crimes for January
        2007: Four hundred fifty-one (451) crimes
        2006: Four hundred ninety-six crimes

    Once case of interstate domestic violence VAWA was successfully 
prosecuted by the United States U.S. Attorney's Office (USAO) The Salt 
River Police obtained a Federal arrest warrant and located the suspect 
within seventy-two (72) hours and made an arrest. Subsequently, the 
defendant in the case was sentenced to thirty (30) months in the 
Federal Bureau of Prisons (BOP). The Salt River Police Department also 
provides Arizona Law Enforcement Academy (ALEA) Police Academy 
Instructors on domestic violence for full faith and credit. Part of our 
internal process is to send an Officer to the victim to Notify Upon 
Release of the perpetrator. We also require twenty-four (24) hour 
incarceration in our Salt River Department of Corrections (SRDOC).
Violent Crimes 2006-2007
    In calendar year 2006 we had fifty-five (55) drive-by shootings and 
in 2007 we had a total of twenty-nine (29) drive by shootings of which 
eight (8) arrests were made and two (2) of these cases involved serious 
injuries.
SRPMIC Violent Crimes 2008
    So far this year we've had twelve (12) drive-by shootings and one 
(1) walk up shooting occurred where the suspect was apprehended. In 
February 2008 a total of six (6) drive-by shootings occurred within one 
(1) hour on a Sunday morning. Fortunately, there were no fatal 
injuries. On this same day two (2) shots were fired at our Police 
Officers. Some of the firearms confiscated from the drive-by shootings 
include high powered rifles, AK-47, SKS, shotguns and pistols.
Statistics for FY 2007-2008 Fiscal Year (October 2007-December 2007)
  <bullet> Eighteen thousand two hundred-twenty (18,220) calls for 
        service.

  <bullet> Five thousand forty-one (5,041) Police reports.

  <bullet> Average response time for life threatening calls is three 
        minutes (3) and fifty (50) seconds.

  <bullet> Average response time for priority two, which is in 
        progress, is four (4) minutes and ten (10) seconds.

  <bullet> Eight thousand nine hundred-ninety (8,990) hours of 
        training.

  <bullet> Two hundred ninety-four (294) Accidents/Crashes.

  <bullet> Two thousand two hundred-twenty-two (2,222) Citations were 
        issues.

  <bullet> One hundred-five (105) DUI arrests.

  <bullet> Eighteen (18) Narcotic arrests.

  <bullet> Detectives and Crime Scene Specialists were called out 
        sixty-five (65) times.

  <bullet> One thousand seven hundred twenty-eight (1,728) items of 
        evidence were impounded for the quarter.

  <bullet> Twenty (20) fire arms seized.

  <bullet> Twenty eight thousand four hundred twenty-three (28,423) 
        calls were received by the Salt River Police Department 
        Communications Center. Three Thousand two hundred ninety eight 
        (3,298) were 911 calls for service.

  <bullet> One hundred fifty-one (1510 alarm signals received by the 
        Salt River Police Department Communications Center.

Pilot Project Scope
    Jurisdiction would be over non-Indians who commit an offense within 
the exterior boundaries of the SRPMIC and for whom, had they been a 
Community member or non-Community member Indian, the SRPMIC would have 
criminal jurisdiction.
Pilot Project Duration
    The Pilot Project would be in place for a three-year period, after 
which time it would be evaluated and determined whether it should 
continue.A report, including the outcomes of such evaluations shall be 
reported to the United States Congress annually.
Pilot Project Criteria
    Criteria would be established on a government-to-government basis.

        a. Demonstrate Capability to Provide Adequate Law Enforcement 
        Services.

        b. Enter into Intergovernmental Agreements.

        c. Have existing Special Law Enforcement Commission Cards 
        (SLEC).

        d. Have above average record for past seven (7) years in 
        providing police services.
Pilot Project Evaluation
    Evaluation tools and schedules will be developed and implemented on 
a regularly scheduled basis, at the least, in one-year intervals.
Pilot Project Retrocession
    A process would be established to allow a tribe to retrocede 
jurisdiction to the federal government, it may do so.
Pilot Project Termination
    Criteria would be established to determine when a tribe is no 
longer able to participate in the Project.
  2. Financial
  <bullet> Restore Funding for Crime Labs.

        FBI discontinued $450,000 funding to Arizona Dept. of Public 
        Safety for processing tribal and state case evidence. This 
        decision created an inability for Arizona Tribal Police 
        Departments to effectively process and prosecute cases due to 
        the absence of funding. Arguably, this federal trust 
        responsibility was previously met for years and for reasons 
        unknown, has since been abandoned. SRPMIC had to enter into a 
        costly Intergovernmental Agreement one hundred fifty thousand 
        dollar ($153,000) Agreement with the City Scottsdale in order 
        to ensure that law enforcement services would continue. We 
        recognize that not all tribes have that close proximity, or the 
        finances available. We would request funding be made available 
        to assume cost for lab cost(s). The Federal Bureau of 
        Investigation's response is ``It's a budgetary matter.''

  <bullet> Increase and make permanent adequate funding for law 
        enforcement services.

        The SRPMIC is fortunate to have the necessary resources and 
        partnerships to support our law enforcement personnel and 
        programs. However, other tribes are in desperate need of 
        revenue.

  <bullet> Increase funding for Detention Centers, but more 
        importantly, for Operations and Maintenance for both adult and 
        juvenile facilities.

        The SRPMIC is fortunate to have our own newly built adult and 
        juvenile Correctional facility, however, maintenance costs is 
        still needed to Ensure we provide upkeep to our facility.

  <bullet> Clarify and strengthen review of declinations from the US 
        Attorney's Office.

        Working hand in hand with the U.S. Attorney for the District of 
        Arizona, Funding for training of Officers and ways to secure 
        and maintain evidence is critical for victims who often times 
        have no voice.
  3. Education
  <bullet> Federal staff should be educated on the trust responsibility 
        and the various levels of jurisdiction throughout Indian 
        Country. In negotiating agreements with federal agencies, it 
        can take extra time to try to get federal representatives to 
        understand that the relationship of the tribe to the federal 
        government differs. For example, the BIA Manual does not apply 
        to tribes that have entered into a self-governance compact.
  4. Intergovernmental Relations
  <bullet> Special Law Enforcement Commissions cards.

        For years, some tribes have held such commissions without need 
        for an IGA. The Agreements developed were imposed on tribes who 
        have taken on a federal responsibility, and have successfully 
        fulfilled the responsibility. Yet, the Agreements did not 
        totally meet the needs, nor were they ``negotiated''. SRPMIC 
        began ``negotiating'' in Fall 2003 and finalized our 
        negotiations in Winter 2007 with the Bureau of Indian Affairs 
        to enter into an Agreement that meets the needs of our 
        community and follows the terms of the Compact. Six years is 
        much too long a timeframe to wait for Special Law Enforcement 
        Cards (SLEC) when our people and law enforcement personnel are 
        being violated.

  <bullet> Since 1994, the SRPMIC currently has Intergovernmental 
        Agreements and Contracts with the Arizona Department of Public 
        Safety (AZDPS) Highway patrol. AZDPS is the primary law 
        enforcement investigator of motor vehicle collisions involving 
        non-Indians that occur on the freeways within the SRPMIC. These 
        include SR Loop 101, SR 202 and SR 287 Beeline. If SRPMIC 
        members or Indians are involved, the SRPMIC Police department 
        will investigate the incident. We also contract with the City 
        of Scottsdale Police Department Crime Lab to process our 
        evidence. This after the Federal Bureau of Investigation (FBI) 
        refused to continue this service for Arizona tribes. Indian 
        Country evidence is now processed in Quanitco, Virginia.

  <bullet> Since 1995 we've had a contract with the City of Mesa Police 
        Department, Center Against Family Violence (sexual assault and 
        domestic violence assaults).

  <bullet> Consultation--Not done in Adam Walsh Act

        The Act, specifically the sections which affect Indian Country, 
        were done without consultation with Indian Tribes. Tribes were 
        also given a unilateral choice to comply by opting in to 
        develop and coordinate a registry, or have state law imposed. 
        Tribes under PL 280 jurisdiction were not even given an option.

  <bullet> Lack of Communication of Matters

        From time to time changes in personnel and programming require 
        notification to the tribal government leaders and Police 
        personnel.
  5. Homeland Security
  <bullet> An overarching principle is that Indian tribes have 
        throughout the years, practiced ``Homeland Security'' both 
        amongst the tribes and currently through development of 
        governments, legislation and the judicial system.

  <bullet> The United States political borders are not always the same 
        as tribal cultural borders, yet we are bound and current 
        practices are now being thwarted, by such legislation as the 
        Patriots Act and the REAL ID Act.

  <bullet> Tribes should be exempted, or at least allowed to opt-out of 
        legislation aimed

  <bullet> at advancing national security and fighting terrorism 
        against the Untied States.

  6. Passage of the Indian Health Care Improvement Act
        The physical and mental health of individuals is a crucial 
        component to reducing recidivism. We are grateful for the 
        Senate Committee On Indian Affairs and your efforts to ensure 
        the passage of the IHCIA. We look forward to its passage on the 
        House side and being signed into law by the President.

    Thank You for the opportunity to testify on such a critical matter 
that involves the health, safety and peace of not only our Community 
members but the lives all those who are not members of the SRPMIC. We 
look forward to success passage and implementation of this legislation 
and I commend the Senate Committee on Indian Affairs for your exemplary 
work and commitment towards restoring the federal responsibility in 
Indian Country.

    The Chairman. President Enos, thank you very much for your 
testimony. We appreciate you being here and we appreciate your 
hosting us.
    Ms. Enos. You're welcome.
    The Chairman. Next we will hear from Mr. Samson Cowboy, a 
Navajo Public Safety Director of the Navajo Nation of Window 
Rock, Arizona.
    Mr. Cowboy, you may proceed.

  STATEMENT OF SAMSON COWBOY, PUBLIC SAFETY DIRECTOR, NAVAJO 
                             NATION

    Mr. Cowboy. Thank you, sir. Good afternoon. Chairman Dorgan 
and Senator Kyl and your staff, thank you for being here.
    This is an honor. I come from a detention law enforcement 
and police service and correction--or detention background.
    I have walked many miles on those concrete surfaces that 
you have shown there in the detention facility way back when in 
1983.
    Then I became a police officer, and I drove many miles on 
dirt roads, and I made many arrests and some that had ended on 
the dirt, and I have been shot at and I have requested for 
backup which was two hours away.
    I have experienced all that, and I have worn many hats 
being a criminal investigator. One day I would be a social 
worker. The next day I would be a fire marshal. There are weeks 
I would be a coroner. Then finally a month later, I would be 
back in my old job as a criminal investigator.
    I have experience, and I have been in the shoes of our 
people that are in law enforcement. My people that I oversee as 
a Division Director of Public Safety, I have great respect for 
them, and that's the reason why it's a great honor to be here.
    Again, my name is Samson Cowboy. I am Division Director, 
and I'm representing President Joe Shirley, Jr. Unfortunately, 
he couldn't be here today for other emergency issues that he 
had to tend to. Nonetheless, I will summarize some of his 
remarks.
    The Navajo Nation is 21,000 square miles, and we cover 
three states. And you all have different needs, different 
jurisdictional issues, different types of statutes that we have 
to deal with when it comes to State.
    We have to deal with the different type of way the 
management is and the different United States Attorney's 
Office. However, as partners with the States and with the 
Federal Government, I think we are in good standing. We have 
been working diligently side by side on a lot of meth issues, 
bootlegging issues, and prosecuting some of the crimes on the 
Navajo Nation.
    However, there are some still discrepancy that still exists 
within the three states. I think with this hearing, that might 
be one of the issues that need to be looked at at how we can 
uniform one jurisdiction on the Navajo Nation with regard to 
Federal.
    And the State we have cross-jurisdiction that we have 
implemented. We have MOUs that we have put in place with the 
sheriffs, and that's working.
    The other issue that we deal with is the non-Indians. As 
you know, when you look at the map, Navajo Nation is like a big 
hole there when you see the Nation out in the boundary 
outlines.
    We have a haven for criminals that are coming on to the 
Nation, particularly those that are trafficking drugs.
    We have a high crime of drug trafficking, and we also or 
have encountered domestic violence by non-Navajos which is also 
an issue when it comes to jurisdiction.
    Our law enforcement responds to over a quarter of a million 
calls a year, and those calls are for all types of services, 
and the law enforcement are our first responder on the Navajo 
Nation.
    We had 174 police officers in 2003, and we had increased it 
to 350 or 73 and now we are back to 347 because of the 
surrounding agency are recruiting our people. These are some of 
the areas that we are competing with over manpower because of 
salary and that funding issue.
    The criminal investigators that we have are very capable of 
providing the service. However, when we had the Safe Show Task 
Force that was in place with the FBI, it was very effective.
    That's another area of our concern, if we can with 
assistance from your Committee, maybe that can be recommended 
and we can get back together on that and work with the Safe 
Show Task Force as it was before.
    The detention facility. You have shown that picture with 
the ceiling that's cracking. That facility has since been 
closed, and we also closed another facility which is Chinle.
    The only facility that is open is Tuba City, Crown Point--
not Tuba City--Shiprock, Crown Point, and Window Rock. Those 
are the only three facilities.
    And we have 20 bed space with the BIA in McKinley County, 
so we have a total of 83 bed space a year ago, but now we have 
53 bed space. So that's a dire need for us, a facility.
    In order for us to satisfy some of these sentencing, some 
of the prosecutor's work that need to be recognized, the 
courts, a facility is the only thing that's going to resolve 
our issue.
    We can have all the manpower. We are just going to increase 
the arrests, we are going to respond to high numbers of calls, 
but we will not solve the problem.
    The problem that we have, the basic problem that we have is 
facility. If we can get a facility, even at least one regional 
facility, I think that would be sufficient for us as we move 
along for a long-term solution in building more facilities.
    I think one area that I personally would like to see is 
better coordination between BIA and Navajo Nation in order to 
build at least one facility.
    I know Senator Domenici has been working on some proposal, 
but that hasn't come to a reality. And we are looking forward 
to that. I think there needs to be some support on Domenici's 
initiative on the New Mexico side.
    The other concern that we have is the cross-deputization, 
as it was brought up. We have submitted our documents, and it's 
not being approved by BIA.
    We need to get that deputization so we can protect our 
people. Our police officers respond to calls, and they get 
assaulted or they get shot at and the offenders are only 
charged as--the officers are not considered within the--under 
the color of law. They are considered as civilian victims so 
they are not--the individuals are not prosecuted to the 
fullest. That's the reason why we need the deputization put 
back in place.
    The other area that we are concerned about is with high 
numbers of calls. I have 46 dispatchers that work throughout 
the Navajo Nation, and these dispatchers have been with us for 
a number of years.
    However, we are losing them because of retirement. In the 
Navajo Nation, it was unheard of, retirement for dispatchers, 
but we are at that stage now and I'm ready to see at least five 
more dispatchers retire.
    I already had four of them retire, and their salary is just 
a little bit above minimum wage. These are some of the concerns 
that we have. In order to have an effective law enforcement, I 
think the support needs to be there.
    The other lacking issues that we have is in 911. We don't 
have the 911. We don't have a telephone service.
    The vastness of the land is another issue, and the 
prosecutor can do their job but without facility, again, that's 
where we come back to.
    And then with the facility, there is no treatment. There is 
no treatment that comes with it. I think there's got to be some 
type of treatment that needs to be incorporated when we build 
these facilities.
    All in all, I think this comes down to funding. We can talk 
about solution, but I think funding is a big issue.
    We have a budget of 19 million, but that's shared between 
three law enforcement programs which is corrections, criminal 
investigation, and law enforcement. And when the pie is broken 
down, it's very minimal for our people to realize how much is 
missing when it comes to budget.
    The other thing about the budget is that we had never had 
an increase in the last four years. So these are other areas of 
our concern.
    With that, sir, I think it's an honor, again, for you to 
come out here and for us to be here in Arizona, and it was a 
short trip for me, and thank you very much.
    The Chairman. Mr. Cowboy, thank you very much for your 
testimony. We appreciate your being here. We appreciate your 
long service in law enforcement.
    The Honorable Eldred Enas is the Vice Chairman of the 
Colorado River Indian Tribes.
    Mr. Enas, you may proceed.

STATEMENT OF ELDRED ENAS, VICE CHAIRMAN, COLORADO RIVER INDIAN 
                             TRIBES

    Mr. Enas. Good afternoon, Chairman Dorgan and Senator Kyl, 
honorable tribal leaders, and guests. I want to thank you this 
afternoon for the opportunity here to appear before you and to 
discuss law enforcement issues in Indian Country.
    I will highlight some of the law enforcement problems that 
we face in our Reservation. I can assure you that our problems 
are not unlike those faced by others in Indian Country.
    Law enforcement issues are of increasing importance to all 
tribes, and we are grateful for the Committee that has 
dedicated its time and resources to invest in discussions of 
our concerns and needs.
    The Colorado River Indian Tribes, CRIT, is facing the same 
dilemma as many Indian tribes across the nation.
    Its tribal justice system is severely underfunded by the 
Federal Government. Through P.L. 93-638 contracts, the Bureau 
of Indian Affairs funds a mere 30 percent of the cost needed to 
operate the CRIT's law enforcement and detention programs, 
leaving CRIT to absorb the remaining 70 percent. CRIT has 
repeatedly objected to this shortfall.
    Further, even though CRIT did not renew its P.L. 93-638 
contract for juvenile detention, the BIA has not fulfilled its 
obligation to transport and detain juvenile offenders.
    Despite the fact that the program is now the responsibility 
of the BIA, CRIT continues to incur substantial costs related 
to the detention and transport of all juvenile offenders.
    The issues facing CRIT's three law enforcement programs--
juvenile detention, adult detention, and uniformed police--will 
be discussed in detail.
    No. 1, juvenile detention. In May of 2004, the BIA removed 
all CRIT juveniles from the CRIT juvenile detention facility on 
the Reservation.
    The juveniles were removed because CRIT's juvenile 
detention facility was connected to the adult detention 
facility and did not meet the Department of Justice 
requirements for sight and sound separation between adult and 
juvenile detainees.
    CRIT's juveniles are currently housed at the Gila County 
Juvenile Detention Center in Globe, Arizona, 5 hours and 250 
miles away from the Reservation.
    This is a violation of the National Institute of Correction 
regulations which mandate that no individual subject to 
incarceration under the Federal system and Federal guidelines 
can be incarcerated in a facility of no more than 250 miles 
from his or her home.
    Unfortunately, the families of these juveniles are unable 
to physically visit their detained children.
    Even a trip to Globe is unattainable for those families 
with little or no income and no means of transportation. This 
means it makes it even more difficult for juvenile detainees to 
reintegrate themselves into their families and their community.
    It is very difficult for CRIT to deliver mental health and 
substance abuse services to the juvenile detainees who are 
housed 250 miles away from their Reservation. Therefore, CRIT 
juveniles are not receiving these much needed services.
    If these services were on or closer to their Reservation, 
CRIT's behavioral health services and alcohol and abuse 
programs as well as the juvenile detention--probation 
department would be able to adequately serve these children. 
Having the BIA assume these transportation duties has led to 
another grave problem. CRIT juveniles are not being transported 
back to the Reservation in a timely manner.
    For example, in December a juvenile detainee was not 
transported back to the Reservation until 13 days after her 
tribal court release date. The transportation of this juvenile 
detainee occurred only after a formal letter from the CRIT 
chairman was sent to the BIA supervisory corrections officer in 
Phoenix.
    Further, until they are transported to Globe, juvenile 
detainees are held in a CRIT juvenile temporary holding 
facility.
    CRIT receives no funding, BIA funding, for this operation 
and maintenance of this facility or for the temporary holding 
of juveniles who are awaiting adjudication or transportation to 
Globe. The juvenile temporary holding facility is only for 
holding juveniles for this purpose and a short period of time.
    However, since the BIA is unable to fulfill its obligation 
to transport juvenile detainees, children remain in the CRIT 
temporary housing facility up to several months.
    To date, CRIT is holding five juveniles that are awaiting 
transport from the BIA. The longest stay period has been over 
three months for one of these juvenile offenders.
    Initially the BIA picked up these children within 48 hours 
of the transport order. Due to overcrowding and safety 
concerns, CRIT has repeatedly been forced to release juvenile 
detainees before the end of their sentence because the 
temporary holding facility is not appropriate for holding long-
term detention. This has resulted in an increase in juvenile 
recidivism on the Reservation.
    To make things worse, CRIT expended approximately $680,000 
of its own funds from 2005 to 2007 to house and transport 
juvenile detainees.
    CRIT was forced to pay these costs after the BIA failed to 
uphold its obligations after closing the juvenile--tribal 
juvenile detention facility in 2004.
    After a long, exhaustive fight with the BIA, which went way 
up to the Assistant Secretary for Indian Affairs and Director 
of Law Enforcement, CRIT has only been reimbursed only 250,000 
out of the 680,000 owed.
    Currently CRIT bears the entire cost of the juvenile 
facility. This cost the tribes approximately 240,000 annually.
    The second portion is the adult detention. The BIA's 
proposed base funding for the P.L. 93-638 contract for adult 
detention is 270,000 for Fiscal Year 2008. The program costs 
approximately 760,000 each fiscal year.
    CRIT has repeatedly objected to this shortfall in funding. 
The proposed BIA funding covers approximately 36 percent of the 
cost to operate this program, while CRIT absorbs the remaining 
64 percent.
    In 2007, as a result of the shortfall, CRIT Tribal Council 
took action not to recontract the adult detention program.
    In late April, in reliance on a promise of additional 
funding from the BIA, the Tribal Council took action to extend 
the adult detention P.L. 638 contract through September 30, 
2007.
    This extension was agreed to in reliance of the following 
additional funds available to CRIT: An increase of funding by 
180,000 and the restoration of approximately 30,000 in 10 
percent hold-back funds. These funds were to carry the program 
to the end of the fiscal year on September 30, 2007.
    The BIA later asked the tribe to extend the 2006 adult 
detention 638 contract to December 31, 2007. CRIT reluctantly 
agreed, although the tribe received no additional funding.
    Law enforcement. The BIA proposed base funding for the P.L. 
638 contract for uniformed police for the 2008 fiscal year is 
$673,000.
    The total projected program cost is approximately 
$2,115,000 annually. Thus, the BIA funding only covers 
approximately 32 percent of the total cost and CRIT absorbed 68 
percent.
    CRIT has been very conservative with the uniformed police 
budget due to the extreme shortfall in funding.
    Unfortunately, our conservative spending puts our police 
department at a disadvantage because our neighboring 
jurisdictions pay their officers at a more competitive rate and 
provide a more competitive benefits package.
    As a result, CRIT's turnover rate for uniformed police is 
alarmingly high, around 50 percent for 2006 and 2007. As a 
consequence of the high turnover rate, CRIT police officers 
work exceedingly long hours to ensure adequate police coverage 
on the Reservation.
    And in conclusion, it is evident that the BIA is failing in 
its fiduciary and other obligations to CRIT.
    The shortfall in law enforcement and detention funding 
exposes CRIT to a very serious problem such as a diminished 
public safety presence on the Reservation.
    Moreover, even when the BIA assumes responsibility for 
programs such as juvenile detention, it fails to follow 
through.
    Congress should work to ensure adequate funding for Indian 
Country law enforcement and improved responsiveness of the BIA 
to the needs of tribal programs.
    I just want to add that, myself, I'm an ex-officer, had 
about twelve years with the Tribal Police and eight years with 
the County as a County Deputy.
    And they say once it gets in your blood, it's always there. 
Even though I'm the Vice Chairman for the tribe, this is one of 
my interests and I would like to follow this through and see 
what turns up at the end of day. Thank you.
    The Chairman. Mr. Enas, thank you very much for your 
testimony. I'm going to ask just a couple of questions before I 
will call on Senator Kyl.
    I think all of you have given some extensive analysis of 
what you consider to be the shortcomings on Reservation law 
enforcement and lack of resources, the jurisdictional issues, 
and so on.
    President Enos, in your testimony you describe, for 
example, domestic violence, quoting your testimony: A non-
Indian suspect assaults an American Indian victim, who perhaps 
was in a relationship, is standard domestic violence. A suspect 
cannot be charged with a State crime of domestic violence since 
the victim is American Indian. The suspect may be charged with 
a Federal crime since all Salt River police officers now have a 
Special Law Enforcement Commission Card, but only if the 
injuries are very substantial.
    You see a burglary. A non-Indian suspect burglarizes an 
American Indian residence, and the suspect cannot be charged 
with a State crime of burglary because the victim is an 
American Indian. You say in that case Federal charges would not 
apply.
    Stolen vehicles. A non-Indian suspect steals an American 
Indian's vehicle. The suspect cannot be charged with a State 
crime of vehicle theft if apprehended within the boundaries of 
the Reservation because the victim is an American Indian. 
Federal charges would not apply.
    I guess that's news to me. You are saying a non-Indian 
suspect comes on the Reservation, steals an American Indian's 
vehicle, and the suspect can't be charged with a State crime of 
vehicle theft because it happens on the Reservation and it's 
the theft of the vehicle of an American Indian; is that 
correct?
    Ms. Enos. Let me respond to that. My analysis is of a 
practical nature, for instance, if you have a situation where a 
non-Indian is presumed to be the suspect. Suppose you catch 
them in the act, so to speak.
    What has to be done is our officers can detain such an 
individual once they go through the determination that it's a 
non-Indian. They can detain, they can call the State Police, 
and they can refer the case.
    The difference in practicality if we had jurisdiction over 
that individual would be that our officers could take that 
individual into custody, take him before the Court, prosecute, 
file charges--the prosecutor would file charges.
    The case could go before a tribal jury, and we understand 
that there are considerations for non-Indian possibilities of 
them serving in the jury. If given a sentence, they would serve 
that sentence in the jail. That's the practical analysis of 
that.
    Sure, if a non-Indian comes out here and is caught red-
handed, they are going to call the State Police.
    And if the State Police are available, if the crime is of a 
serious enough nature, more likely than not charges could be 
filed. But, again, that's an intrusion of State laws into the 
Reservation.
    The Chairman. All right. Let me ask the three of you. Let's 
assume that there is a domestic violence on your Reservation 
today. A non-Indian commits an act of serious violence against 
a spouse who is an American Indian.
    What is likely to happen this afternoon in Federal prison 
on your Reservation?
    Ms. Enos. In Salt River, the police would call and notify 
the FBI, for one thing, if it's a serious enough injury because 
it would fall under a Federal statute presumably.
    They would also contact the State Police officers, probably 
the Department of Public Safety or Sheriff's Office and, again, 
if they are available and if they are willing to come out, our 
officers would have to investigate and process all evidence.
    The Chairman. What's the likelihood of the prosecution in a 
case like that, arrest and prosecution?
    Ms. Enos. Again, I think that depends on the seriousness of 
the injury, unfortunately. If you slap your girlfriend around 
or your spouse around, the chances of prosecution decrease.
    I guess the alarm here is that do Indian women have to be 
seriously maimed before somebody comes in and prosecutes them?
    The Chairman. Mr. Cowboy, on your Reservation, what's the 
likelihood of an arrest and a prosecution?
    Mr. Cowboy. It depends. The reason why I say it depends is 
we have to work with the FBI. It depends on the nature of the 
injury, what the young lady described here.
    If it falls under the major crime act, then, yes, the 
individual would be prosecuted; but if it's a domestic that 
falls a little short or there is a lot of gray area. You have 
to understand that.
    And if it falls under that, then we have to rely on the 
FBI's position, if they are going to move forward to 
investigate it, and the U.S. Attorney's position.
    So we rely on these two agencies to make the determination 
if it's going to be prosecuted. A lot of times they are not 
prosecuted so we are just standing there and we have to let the 
individual go.
    The Chairman. Mr. Enas?
    Mr. Enas. It's very much the same. It relies on the 
offense, whether it's a misdemeanor or a major felony.
    The BIA comes in after the investigation of the Tribal 
Police, and most likely I would say it wouldn't be prosecuted 
in the State Court so--we have been successful in working with 
the State Courts.
    The Chairman. The reason I ask the question is it in many 
ways summarizes the problems. We have people telling us from 
around the country on Indian Reservations that even in cases of 
rape that it is not all that certain that there is going to be 
a prosecution when the perpetrator is known.
    It kind of depends on a whole series of circumstances. In 
many cases, there are areas where if you take someone to a 
health clinic, there is no rape kit available to gather 
evidence and a whole list of circumstances where there are a 
lot of--in this case with this question--Indian women who 
believe that there are those who are not brought to justice as 
a result of crimes against women. That's just one area. But----
    Ms. Enos. I have to say, Senator, also there is the 
position, too, that the State has no jurisdiction on a 
reservation where a victim is an Indian.
    The Chairman. I understand that. Senator Kyl?
    Senator Kyl. Thank you, Mr. Chairman. Let me just follow 
along in that line of questioning to Mr. Cowboy.
    You have been involved in law enforcement on the largest 
Reservation in our country. Is your experience that there is a 
need for resources all the way from the beginning to the end?
    In other words, from the number of officers, the vehicles 
you have, all the way to the charging officers, the detention 
facilities, the judges, the prosecutors, the defenders, the 
crime labs?
    Does that exist throughout the entire system with your 
Indian Affairs?
    Mr. Cowboy. Sir, I think you hit it right on the spot in 
one word, crime lab. There is a big gap there right now.
    With any case that we investigate, even an expert requires 
another expert to testify on their behalf. If we don't have a 
crime lab, you know, where a lot of times our cases are 
dismissed. That's one area.
    The other thing is I think when we talk about the whole 
system, yes, we do need support at every level in order to be 
successful. It's all the way to the Court. I think we need to 
develop our--strengthen our own justice system. I think that's 
where it's at, and I think that's where we need a lot of 
support.
    Senator Kyl. In your experience, is there much difference 
between the prosecution of crimes by the tribal government 
against members of the tribe or other Indians on the one hand 
and the Federal Government's prosecution of crimes committed by 
non-Indians on the Reservation?
    Mr. Cowboy. I work in three states and they all have a 
different position. I think like in New Mexico, if it's a 
victimless crime, the State will handle it, meaning if it's a 
burglary or vehicle, somebody takes an item out of the vehicle 
or takes a vehicle, if it's not a person involved, the State 
will handle it on the New Mexico side.
    Now when it goes to Utah, they won't accept any cases. And 
when you go to Arizona, you know, there's some cases that, you 
know, the counties will handle it but, again, it goes through 
the layers again. We have to rely on the U.S. Attorney and the 
FBI.
    Senator Kyl. And with respect to the serious crimes, since 
we are talking about serious domestic violence crime against 
women and so on, with regard to those more serious crimes where 
the State would not be involved, is there much difference in 
your experience between the prosecutions by the tribal 
prosecutors versus those that are handled by the FBI and the 
U.S. Attorney's Office?
    Mr. Cowboy. I think our tribal prosecutors are very 
aggressive going after the case and, again, it falls back into 
the facility. When it goes into the Federal cases, then it 
depends on opinion, you know, what opinion we are going to get 
back.
    Senator Kyl. Let me ask you, the other two gentlemen talked 
a lot about resources, and I noticed you didn't testify much 
about resources. And you heard me talk about the entire 
criminal justice system here.
    Could you indicate what your community situation is with 
respect to resources brought against the investigation and 
prosecution of these crimes?
    Ms. Enos. Certainly. The community has to put a significant 
amount of its budget into the law enforcement issues.
    We just completed a state-of-the-art facility where the 
Federal Government funded approximately half of a $21 million 
facility that's going to house both juvenile and adult 
offenders.
    As I indicated, we have 117 sworn officers and a 
significant amount of support staff goes with that as well.
    The community has had to enter into a contract with the 
City of Scottsdale for more than $300,000 just to process 
evidence because the BIA cut the funding for evidence last 
year. So the community stands ready and willing to commit 
resources, not insignificant resources, to the problems 
associated with law enforcement.
    Senator Kyl. Would that include the necessary resources to 
prosecute the crimes against non-Indians that would be not 
prosecuted by the Federal Government?
    Ms. Enos. We would. As I indicated in my testimony or my 
comments earlier about state jurisdiction over non-Indians, 
there are a variety of states that have, as this gentleman 
indicated, different interpretations of application of state 
law.
    As far as the non-Indian that would be in our estimation, 
we discussed that an example of a possible pilot project would 
be jurisdiction over non-Indian domestic partners.
    To give you an example, in Salt River in 2008 there were 32 
crimes in January alone with domestic violence.
    In the whole of 2007, there were 451 domestic violence 
crimes; in 2006, 496 domestic violence crimes.
    We have these statistics by virtue of the fact that we have 
the equipment to keep statistics, the officers to investigate 
those crimes, the technicians to process evidence so they tell 
stories.
    Senator Kyl. And my question is, since obviously the whole 
point of this is the lack of resources primarily committed by 
the Federal Government, you are saying that you would make the 
resources available to make up for this difference and if you 
were given the jurisdiction that you could prosecute the crimes 
that you mentioned?
    Ms. Enos. Yes. We have committed the resources. Let me say 
also that one of the unique things about all of the tribes, one 
of the unique things about Salt River is not only our physical 
location but the fact that we are one of the successful gaming 
tribes in Arizona.
    Now, we could not do what we do, I dare say, without the 
resources available to us through gaming, and the fact that we 
committed a significant amount of those resources towards law 
enforcement says a lot about our intentions for the future.
    Senator Kyl. Mr. Chairman, I have got a lot of other 
questions. I take it you'd like to move on to the next panel 
here? Or do you want to just keep rotating back and forth?
    The Chairman. I have a series of questions as well. What 
I'd like to do is submit questions to you for the record 
because we are trying to get some analysis of the proposals 
that exist out there, and I want to go to the second panel. 
Just in the interest of time.
    So I want to thank the three of you for your statements, 
and we will submit written questions to you and ask if you 
would submit for the record.
    We intend to hold the record open for two weeks and ask for 
submissions not only by the three of you but by others who did 
not testify but wish to submit questions for the Committee.
    Ms. Enos. We also ask leave to supplement our testimony.
    The Chairman. Thank you. Next we will hear from the 
Honorable Phil Gordon, the Mayor of the City of Phoenix; the 
Honorable Diane Humetewa, who is the U.S. Attorney for the 
District of Arizona here in Phoenix, Arizona; and Mr. Rod 
Mendoza, the chief of police of the Town of Parker Police 
Department in Parker, Arizona.
    Let me thank all three of you for being here. Mr. Mayor, I 
landed in your city today. Phoenix looks like it's doing well--
and Senator Kyl knew Mayor Gordon long before he became Mayor--
and I appreciate the work that you are doing, Mr. Mayor.
    Mr. Gordon. Thank you.
    The Chairman. If I may call on the U.S. Attorney first and 
say I was one of those who submitted a letter on your behalf, 
enormously proud that you are serving as the U.S. Attorney, and 
we will ask once again the three of you to summarize your 
testimony. But let's begin with you. You no doubt have heard a 
lot about the issue of the U.S. Attorney's responsibilities on 
these Indian Reservation law enforcement issues. It's 
complicated, difficult, controversial, but we very much 
appreciate your work and your being here. You may proceed.

               STATEMENT OF HON. DIANE HUMETEWA, 
               U.S. ATTORNEY, DISTRICT OF ARIZONA

    Ms. Humetewa. Thank you. The Department of Justice 
appreciates the opportunity to testify on its efforts to 
address Indian Country crime.
    I am Diane Humetewa, the U.S. Attorney for the District of 
Arizona. I wish to also thank the Salt River Pima-Maricopa 
Indian Community, and in particular President Enos for 
welcoming us here today.
    The Department knows that the needs of the Indian tribal 
governments in responding to crime and violence continues to be 
great, and the President and the Attorney General are committed 
to working with Federal, tribal, state, and local law 
enforcement to do what it can to provide safety and security in 
Indian country.
    In fact, I was privileged to accompany Attorney General 
Mukasey on January 14th to the Navajo Nation where he met with 
President Shirley, the Attorney General, members of the Navajo 
Nation Tribal Council, and the Supreme Court Justice.
    He also toured the detention facility in Window Rock. He 
spoke with tribal prosecutors, defenders, and social service 
providers.
    Also on February 20, the Attorney General met privately 
with representatives of the NCAI, the National American Indian 
Court Judges Association, and the Indian Law Section of the 
Federal Bar Association to discuss justice related issues in 
Indian Country.
    The Department's efforts in Indian Country are led by the 
law enforcement agencies and the United States Attorneys. The 
FBI is heavily involved in investigating major crime act 
violations and the DEA drug trafficking offenses in Indian 
Country, and the U.S. Attorney's Office is daily prosecuting 
Federal offenses arising on Indian land.
    The Department's Office of Tribal Justice, Office on 
Violence Against Women, Office of Justice Programs among others 
support these efforts.
    Of the 94 U.S. Attorney districts, 29 have some Indian 
Country jurisdiction. Along with the AUSA, each of these 
districts has a tribal liaison who is responsible for 
coordinating Indian Country relations in their district.
    Currently 44 AUSAs serve as tribal liaisons nationwide, and 
I would like to acknowledge Vincent Kirby and is also the 
tribal liaison from my district who is here in the audience 
today.
    In Arizona, due to our vast Indian Country, in addition to 
our tribal liaison, each AUSA has some responsibility for 
handling Indian Country crimes.
    Also each AUSA in our violent crime section is assigned to 
a specific tribe and tribal multi-disciplinary team for child 
abuse cases in order to establish relationships with the tribal 
police and prosecutors.
    We have been doing this for over ten years. In our 
Flagstaff office, two AUSAs take cases from the northern area 
Indian tribes. This greatly reduces the travel and overtime 
previously impacting tribal police department budgets as they 
no longer have to come to Phoenix to participate in the initial 
stages of the federal prosecution.
    Moreover, it provides Northern Arizona federal crime 
victims better ability to participate in the preliminary stages 
of the federal criminal case.
    Regarding federal law enforcement efforts, the FBI has 
worked in coordination with tribal and local law enforcement to 
ensure that the investigation of crimes in Indian Country is 
performed in an effective manner.
    Even with the heightened demands from terrorism 
investigations, Indian Country law enforcement remains a high 
priority for the FBI. In fact, the FBI has increased the number 
of special agents working in Indian Country crimes by 7 percent 
since the tragedy of 9/11.
    In addition, during the past few years, the DEA has made 
significant gains with tribal police by providing training, 
evidence analysis, and developing strategies to address drug 
smuggling and drug abuse problems in Indian Country.
    For example, in 2007, approximately 31.4 tons of marijuana 
was seized on the Tohono O'odham Nation, which is often used as 
a major Mexican drug smuggling corridor.
    And since 2005, locally the DEA, BIA, FBI, and some tribal 
police departments, along with my office, participated in a 
methamphetamine eradication initiative to remove 
methamphetamine dealers from Arizona's Indian Country.
    Let me now turn to an issue that you have expressed an 
interest in, declination rates. The Department understands that 
tribal members may feel frustrated when they do not know why or 
how a particular case was handled after being referred for 
federal prosecution.
    First I want to assure tribal members and this Committee 
that my office and the offices of my colleagues take very 
seriously every case referred to us for prosecution.
    Second, we caution that the declination rate does not give 
a full picture of what occurs in a given case.
    A decision not to prosecute federally does not necessarily 
mean the end of a case, and for this reason federal declination 
figures cannot give a complete picture of how Indian Country 
crimes are handled.
    For example, the case that is initially declined may still 
be charged after further investigation. The Department is also 
concerned about publicizing declination reports which are 
generally not public and the information therein often 
statutorily protected from public disclosure.
    Therefore, the U.S. Attorney's Office works closely with 
our state, tribal, and local partners to ensure that each 
alleged crime is effectively and appropriately handled.
    Next, let me turn to the Congress' ability to create tribal 
court jurisdiction over misdemeanor crimes committed by non-
Indians in Indian Country.
    First, I wish to address the misunderstanding often 
perpetuated about a jurisdictional gap in Indian Country. It is 
important to understand that for every crime in Indian Country, 
there is a court of justice, be it tribal, state, or federal.
    For every criminal who commits an offense in Indian 
Country, there is a venue for justice. In some cases, there are 
in fact multiple courts with jurisdictions over the matter.
    If Congress is considering legislation in this area, it 
should be aware of significant constitutional concerns. As this 
the Committee knows, the Supreme Court in Oliphant versus 
Suquamish Indian Tribe 435 U.S. 191 (1978) held that tribal 
Courts do not have jurisdiction over non-Indians.
    Since that case, the executive and legislative branches 
have considered proposals that would give Indian tribes 
criminal jurisdiction over non-Indians.
    Because DOJ has not been presented with specific 
legislative proposals on the subject, the Department cannot 
opine at this time on precisely the type of constitutional 
concerns a particular proposal would raise.
    At a minimum, the Department believes that any legislative 
proposal must ensure the defendants are granted the due process 
and other rights provided by the United States Constitution.
    Additionally, any attempt to expand tribal court 
jurisdiction to non-Indians must be evaluated to determine 
whether it could provide recourse to federal courts to 
appellate review, including clarifying the scope of that 
judicial review.
    In addition, some tribes do not permit non-Indians to 
participate in the tribal government process or in jury pools 
which may raise equal protection issues.
    Let me conclude by highlighting our efforts in our district 
to foster cooperation and coordination between tribes, states, 
and Federal Government.
    As the Committee knows, law enforcement in Indian Country 
has been hampered by the lack of state, local, and tribal law 
enforcement authority to investigate federal crimes.
    Since last year, through our cross-deputization training 
program, my office's AUSAs trained over 100 state and tribal 
police officers on federal criminal law and procedure.
    This prepared them to take an examination which, if passed, 
qualifies them for a special law enforcement commission through 
the BIA.
    The SLEC card gives the officer authority to enforce 
federal law and to investigate federal crimes in Indian 
Country. This cross-deputization program is a force multiplier 
which allows tribal and state police to increase law 
enforcement efforts in Indian Country.
    I am proud of the work that the United States Attorney's 
office in Arizona has accomplished in this regard and with 
regard to all other efforts aimed at addressing violent crime 
in Arizona's Indian Country.
    In closing, I want to thank you, thank the Committee, for 
the opportunity to discuss these important issues. We are 
committed to working with you to improve the safety and 
security of those who live in Indian Country. Thank you.
    [The prepared statement of Ms. Humetewa follows:]

 Prepared Statement of Hon. Diane Humetewa, U.S. Attorney, District of 
                                Arizona

    Chairman Dorgan, Vice-Chairman Murkowski, and Members of the 
Committee: The Department of Justice (``the Department'' or ``DOJ'') 
appreciates the opportunity to testify before the Committee regarding 
the Department's efforts to combat crime in Indian Country. I am Diane 
Humetewa, United States Attorney for the District of Arizona. I welcome 
you all to the great State of Arizona, and I am pleased to talk to this 
Committee about DOJ efforts to ensure that the rule of law prevails in 
Indian Country.
    We at the Department of Justice know well that the needs of Indian 
tribal governments in combating crime and violence continue to be 
great. We appreciate these challenges, and the President and the 
Attorney General are committed to working with tribal, state and local 
law enforcement, the Department of the Interior, and others to do what 
it can to provide safety and security in Indian Country.
    In fact, one of the first extended trips by Attorney General 
Mukasey was to Indian Country. On January 14th, the Attorney General 
visited the Navajo Nation's seat of government in Window Rock, Arizona. 
While here, he met with the Navajo Nation's Tribal President, Attorney 
General, members of the Tribal Council, and the Chief Justice of their 
Supreme Court. He also toured a justice center, including the jail and 
tribal courts, and met with prosecutors, defense attorneys, and 
behavioral health employees. Furthermore, on February 20th, the 
Attorney General had a private meeting with representatives of the 
National Congress of American Indians (NCAI); the National American 
Indian Court Judges Association (NAICJA) and the Indian Law Section of 
the Federal Bar Association (FBA) to discuss justice related issues 
impacting Indian Country.
    In general, the Department's efforts in Indian Country are led by 
the federal law enforcement agencies and the United States Attorneys. 
The Federal Bureau of Investigation (FBI) is critical to bringing the 
perpetrators of serious crimes in Indian Country to justice, and 
investigating major crimes, while the Drug Enforcement Administration 
(DEA) takes the lead on combating drug trafficking on Indian lands. The 
U.S. Attorneys daily prosecute federal offenses on Indian lands to the 
fullest extent of the law. The Department's Office of Tribal Justice, 
Office on Violence Against Women, Civil Rights Division, Office of 
Justice Programs, Community Relations Services, and Environment and 
Natural Resources Division, among others, provide support or supplement 
these efforts.
    First, let me speak about U.S. Attorneys efforts. Of the 94 federal 
U.S. Attorney districts, 29 have Indian Country jurisdiction. Each of 
these districts has at least one tribal liaison, an Assistant United 
States Attorney (AUSA) who is responsible for coordinating Indian 
Country relations and prosecutions. While many more AUSAs have 
responsibility in Indian Country, there are currently 44 AUSAs serving 
as tribal liaisons nationwide. In Arizona, along with the tribal 
liaison, every AUSA in our violent crime section has some 
responsibility to prosecute crimes in Indian Country. Each AUSA in the 
group is assigned to a specific tribe and to a tribal Multi-
Disciplinary Team in order to establish routine working relationships 
with the tribal law enforcement and prosecutors. We have been doing 
this for more than 10 years. Furthermore, in our northern Arizona 
office, we have assigned two AUSAs to triage cases from the northern-
most Indian reservations. This has greatly benefitted the Northern 
Arizona Indian tribes because it enables them to bring their cases for 
initial review in Flagstaff, rather than having to travel all the way 
to Phoenix. This has saved the tribes a substantial amount of overtime 
and travel-time pay for their employees, and enables victims of crimes 
to have greater access to the preliminary state of a Federal court 
proceeding.
    Nationwide, we dedicate significant prosecutorial resources in 
Indian Country. For example, approximately 25 percent of all violent 
crimes handled by U.S. Attorneys' Offices occur in Indian Country. 
These efforts are leading to many successes. In Fiscal Year 2006, the 
Department's efforts in Indian Country were above average across the 
board. The Department filed nearly 5 percent more cases than the 
average since 1994. Almost 14 percent more cases went to trial than the 
average since 1994, while our conviction rate rose to 89.4 percent from 
the 86.2 percent average since 1994. Eighty percent of those guilty of 
violent crimes were sentenced to prison, and the number of defendants 
convicted of violent crimes receiving sentences greater than five years 
increased from 31 percent on average since 1994 to 36 percent.
    On the law enforcement side, the FBI has worked very hard to 
improve lives in Indian Country. FBI Indian Country activities are 
coordinated by the Indian Country/Special Crimes Unit. This Unit 
develops and implements strategies to address identified criminal 
problems in Indian Country, and supports the efforts of all law 
enforcement personnel working in Indian Country. This includes managing 
manpower resources, addressing budgetary and resource issues, providing 
training, procuring services and specialized equipment, and providing 
assistance to FBI Special Agents assigned to Indian Country, BIA 
criminal investigators, and law enforcement officers from tribal police 
departments. These strategies ensure that the investigation of crimes 
in Indian Country is performed in a manner that will provide the most 
effective law enforcement services to American Indian people.
    These efforts have paid off. Even with the heightened demands from 
terrorism investigations, Indian Country law enforcement has remained a 
high priority for the FBI. Contrary to some claims, the FBI has 
increased the number of Special Agents working Indian Country cases by 
7 percent since the 9/11 terrorist attacks.
    Additionally, DEA field offices work with state, local, and tribal 
law enforcement to address issues of drug trafficking in Indian 
Country. During the past few years, the DEA has made significant gains 
with the Indian law enforcement community and has coordinated efforts 
to come up with strategies and solutions to tribal smuggling, 
distribution and abuse problems. For example, DEA's strategy now 
includes the increased use of Title III wire tapping as an 
investigative tool in dealing with the unique problems associated with 
addressing drug trafficking on Indian lands.
    Again, these efforts have paid off. Here, in Arizona, the Tohono 
O'odham Indian Reservation is the second largest reservation in the 
United States, sharing approximately 70 miles of border with Mexico. 
The reservation is believed to be used as a primary corridor for the 
movement of illegal drugs by Mexican drug trafficking organizations. In 
2007, approximately 31.4 tons of marijuana were seized on the 
reservation.
    Much of this success can be ascribed to the Safe Trails Task Forces 
initiative. The FBI, in conjunction with the DEA and our partners at 
the Bureau of Indian Affairs (BIA), started the initiative to form 
interagency partnerships composed of federal, tribal, state, and local 
law enforcement officers operating throughout Indian Country. The 
purpose of the Task Forces is to benefit Indian Country law enforcement 
by leveraging scarce resources in the fight against methamphetamine and 
other drugs. In 2002, we had six STTFs up and running. Today, we have 
expanded the program to include eighteen Safe Trails Task Forces 
nationwide. During Fiscal Year 2007, the STTFs obtained 106 
indictments, arrested and/or located 129 subjects, obtained 144 
convictions, and disrupted two drug trafficking organizations.
    The Department's Office of Justice Programs (OJP) has developed a 
close working relationship with many American Indian and Native Alaskan 
tribes and remains committed to helping tribal communities meet the 
unique challenges they face in the areas of law enforcement and 
criminal justice. In September 2007, OJP implemented a new Tribal 
Grants Policy, which will help Native communities seeking OJP resources 
through its competitive grant solicitation process. OJP has hosted 
several interdepartmental Tribal Consultations and Training & Technical 
Assistance (T&TA) sessions. OJP also coordinates the Department of 
Justice's Tribal Website, www.tribaljusticeandsafety.gov, which is used 
to keep Indian Country informed on all of our tribal initiatives, 
grants, activities, training and events. This site has grown in 
popularity since it was launched in 2006. We recognize that the 
successful STTF efforts impact other components of the tribal, state, 
and federal justice system and support services, such as meeting 
confinement needs, placement of drug endangered children, substance 
abuse treatment, probation, community re-entry, and recidivism. We are 
collaborating with other federal agencies to address law enforcement 
and safety in a comprehensive fashion.
    Let me now turn to an issue that I know the Committee has expressed 
some interest in-declination rates. First, I want to say that I 
understand the frustration that many tribal members may feel when they 
do not know how and why a particular case was handled the way it was. 
But I want to assure those tribal members and the members of this 
Committee that my office and the offices of my colleagues take very 
seriously every case referred to us. We investigate each case and work 
to prosecute, to the fullest extent of the law, as facts and 
circumstances warrant. Second, I want to caution that declination rates 
do not show the full picture on the Department's actions in a given 
case and the Department has some concerns about publicizing declination 
reports. As this Committee knows, U.S. Attorneys' Offices share 
jurisdiction with state and tribal prosecutors in many Indian Country 
cases, working closely with our partners such as the BIA to ensure that 
each alleged crime is effectively and appropriately handled. A decision 
not to prosecute federally does not mean the end of the case, and for 
this reason, federal declination figures cannot give a complete picture 
of how Indian Country crimes are prosecuted. Where federal courts have 
exclusive jurisdiction--in cases falling under the Major Crimes Act--a 
case that is initially declined may still be returned for prosecution 
after further investigation. Additionally, some cases do not fall 
within federal jurisdiction at all and may be declined after being 
erroneously referred to a U.S. Attorney's Office.
    In some cases, we are restricted by statute from providing 
declination reports. For example, where Indian tribes have entered into 
confidentiality agreements with the U.S. Attorney's office, as with 
Multi-Disciplinary Teams (MDTs) for child sexual abuse cases, 
information about cases is routinely shared between the federal and 
tribal agencies. But MDTs are also governed by federal statute, and 
penalties can apply to those who breach the confidentiality of the 
investigation and a victim's right to privacy. In other instances, a 
declination may occur because there is an on-going investigation that 
requires the law enforcement agency to protect the investigation. For 
example, if a grand jury investigation has been convened, law 
enforcement officers and prosecutors can be subject to criminal 
liability for improper disclosure of information.
    Furthermore, in my experience, we have seen declination reports 
getting into the wrong hands, jeopardizing investigations and the 
safety and privacy of witnesses and victims. This is particularly a 
concern for districts with small tribal populations, in which even 
reports that have personally identifying information redacted could 
still be linked to victims.
    Next, let me turn to the issue of Congress' ability to create 
tribal court jurisdiction over misdemeanor crimes committed by non-
Indians in Indian Country. Let me start addressing a misunderstanding 
often perpetuated about a ``jurisdictional gap'' in Indian Country. I 
want to state clearly-for every crime in Indian Country, there is a 
court of justice, be it tribal, state, or federal. For every criminal 
who commits an offense in Indian Country, there is a venue for justice. 
In many cases, there are multiple courts with jurisdiction over the 
matter.
    If Congress is considering legislation in this area, it should be 
aware of significant constitutional concerns. As the Committee knows, 
the Supreme Court in Oliphant v. Suquamish Indian Tribe, 435 U.S. 191 
(1978), held that tribal courts do not have jurisdiction over non-
Indians. Since that case, the Executive and Legislative branches have 
considered proposals that would give the tribes jurisdiction over non-
Indians. Because DOJ has not yet been presented with a specific 
legislative proposal on the subject, the Department cannot opine at 
this time on precisely what kind of magnitude of constitutional 
concerns a particular proposal would raise. At a minimum, however, the 
Department believes Congress must consider the type of constitutional 
concerns identified below.
    First, any federal legislation on criminal matters must comport 
with the due process and other rights guaranteed to criminal defendants 
by the Constitution and federal law. For example, the Indian Civil 
Rights Act (ICRA) only guarantees counsel in a criminal prosecution at 
the defendant's own expense and does not provide for court-appointed 
counsel. Any grant of tribal court authority over non-Indians, 
especially in felony cases, would need to address the issue of counsel 
for indigent defendants, including the process for appointment and 
compensation of counsel for indigent defendants.
    Currently under the ICRA, the only means of federal court review is 
by means of habeas corpus petitions, which is generally a collateral 
review involving some form of incarceration. As with state criminal 
cases, direct review of tribal court determinations by a federal court 
may be both desirable and necessary. For example, serious misdemeanors 
that do not lead to imprisonment can significantly impact a defendant 
even without incarceration. Accordingly, any attempt to expand tribal 
court jurisdiction to non-Indians must be evaluated to determine 
whether it could provide recourse to federal courts for appellate 
review, including clarification of the scope of that judicial review 
(i.e., whether the review is focused exclusively on constitutional due 
process or on the application of the given body of law by the tribal 
court).
    Some tribal courts assemble juries from pools composed only of 
tribal members, and the criminal law and procedure that governs 
proceedings in tribal courts can be the product of tribal government 
decisionmaking in which non-Indian and/or non-tribal members and their 
interest are not represented. The lack of representation by non-Indian 
or non-tribal members of a tribal community in the tribal governmental 
process and specifically in jury selection for criminal cases raises 
equal protection and due process questions that must be considered in 
deciding whether it is possible to extend tribal criminal law and 
tribal criminal court procedure and jury selection to non-tribal 
members.
    Finally, let me conclude by highlighting one of many success 
stories fostering cooperation and coordination between tribal, state, 
local, and the Federal Government-that is our cross-deputization 
program. We have improved the ability of state, local and tribal law 
enforcement to fully investigate federal crimes and to make arrests 
under federal law in Indian Country. Under our cross-deputization 
program, we work with our partners in the BIA to train tribal, state, 
and local officers, about federal law and give them an opportunity to 
take an examination and if successful, receive federal Special Law 
Enforcement Commissions (SLECs) through the BIA.
    SLECs assist the Federal Government in combating crime in Indian 
Country and, in turn, are entitled to the same immunities as other 
federal law enforcement officers. SLECs allow tribal law enforcement 
officers to enforce Federal law, to investigate Federal crimes, and to 
protect the rights of people in Indian country, particularly against 
crimes perpetrated by non-Indians against tribal members. Most 
significantly, cross-deputized officers are empowered to make arrests 
on federal charges in Indian Country, including misdemeanor and felony 
violations of federal law. In essence, cross-deputizing tribal, state, 
and local law enforcement is a force multiplier, allowing tribal and 
state police officers to increase the law enforcement efforts within 
Indian Country.
    Once cross-deputized, these law enforcement officers receive the 
same protections as federal employees under the Federal Tort Claims Act 
(FTCA). Thus, if such an officer is sued for state common law torts 
committed while acting within the scope of the federal deputation, the 
Department would certify that the individual is a federal employee 
acting within the scope of employment and move to substitute the United 
States in his or her stead for the common law torts. The result of 
substitution is that the officer would be immune from liability for the 
common law claims as the FTCA provides the exclusive remedy in tort. As 
with all federal employees, however, coverage is limited to non-
constitutional claims. If the deputized tribal officer is sued for a 
constitutional violation under the Supreme Court's decision in Bivens 
v. Six Unknown Narcotics Agents, 403 U.S. 388 (1971) (which recognized 
an implied cause of action for deprivation of a constitutional right by 
a federal officer), the suit would proceed against the individual for 
that claim, just as it would proceed against any federal officer who is 
sued on a Bivens theory.
    I am proud of the work that the Arizona U.S. Attorney's Office and 
the BIA have done in recruiting tribal and state police officers to 
earn federal enforcement authority in Indian Country. Just last month, 
AUSAs from my office trained and tested more than 40 tribal police and 
Arizona Department of Public Safety officers for SLECs. Those who 
passed the SLEC test received a certificate granting them federal law 
enforcement authority in Indian Country. This was the third time that 
the BIA and the U.S. Attorney's Office in Arizona have teamed up to 
give the training over the past year, with approximately 100 tribal and 
state police officers certified through the program. Those officers are 
making a real difference in tribal communities. The Department is 
committed to supporting further training sessions such as the one held 
in Arizona last month. I want to thank the Committee for the 
opportunity to discuss these issues today. We stand ready to work with 
the Committee to improve the safety and security of all those who live 
in Indian Country. Thank you.

    The Chairman. Thank you very much for your testimony. We 
appreciate you being here.
    Mayor Gordon, thank you very much for being here, and you 
may proceed.

     STATEMENT OF HON. PHIL GORDON, MAYOR, CITY OF PHOENIX

    Mr. Gordon. Thank you very much, Chairman Dorgan and 
Senator Kyl. I also want to thank the Salt River Pima-Maricopa 
Indian Community president for hosting this hearing today.
    One may ask why is the ``Mayor of Phoenix'' testifying at a 
hearing devoted to Native American criminal justice issues? Let 
me share a few facts.
    Phoenix is the largest city in Arizona, a state with 22 
tribes and several of the largest Reservations in the country.
    We are the financial, legal, governmental, and economic 
center for the region, which has three recognized tribes: Salt 
River Pima-Maricopa Indian Community, Ft. McDowell Yavapai 
Nation, and the Gila River Indian Community.
    In fact, we share 22 miles of our southern border with the 
Gila River Indian Community, the largest Indian community 
border in the Valley and one of the largest city borders in the 
state.
    In addition, Phoenix has the third most Native Americans 
living within its boundaries of any American city.
    Of the ten largest U.S. cities, Phoenix has the highest 
percentage of Native American residents. That means we work 
closely with both tribal governments and community-based non-
profit agencies on issues as varied as cultural and 
archeological preservation, affordable housing, transportation, 
and public safety.
    One of my priorities as Mayor has been to facilitate 
regional action on a whole range of issues, specifically public 
safety.
    Crime and the criminals who commit crime know no 
boundaries. As a responsible City leader, it is imperative that 
I foster state, tribal, and municipal agencies so that we can 
all make our residents safer, whether they live in the City of 
Phoenix, on a tribal reservation, or in another part of the 
Valley.
    Senator Dorgan and Senator Kyl, as I believe you both know, 
our enforcement agencies in this Valley work together on all 
levels in a cooperative spirit unlike anywhere else in the 
Nation.
    Our efforts of coordination are renowned as was 
demonstrated most recently by Superbowl 42 held here just two 
months ago, which is now viewed as a law enforcement model for 
national events.
    Included in the participation of public safety were many 
public safety officials from our Native American communities.
    There are several areas of collaboration between the City 
of Phoenix and tribal governments that may be of interest to 
this Committee. The Phoenix Police Department has several 
cooperative-use agreements in place with the Gila River Indian 
Community on a variety of issues.
    Specifically we have agreement spelled out in detail on the 
protocol for dealing with fresh pursuits, apprehensions, and 
investigations that may occur between the City of Phoenix and 
Gila River.
    We also have a cooperative-use agreement to share radio 
communications facilities and provide microwave links for the 
public safety radio network.
    We have also provided radio equipment under a Department of 
Justice program that has facilitated better interoperable 
communications, and our Phoenix police personnel have met with 
Gila River staff to work on interoperable issues between the 
Phoenix South Mountain Police Precinct and Gila River.
    In short, the Gila River Division of Public Safety has been 
a good partner with the Phoenix Police Department, and we have 
been happy to work cooperatively to assist them with their 
public safety needs.
    Also we have reached out to the Salt River Pima-Maricopa 
Indian Community and the Ft. McDowell Yavapai Nation on 
communications initiatives being led by the Phoenix Urban Areas 
Security Initiative, otherwise known as UASI.
    Phoenix law enforcement has met with Salt River Pima-
Maricopa Indian Community on several occasions and will be 
providing equipment for them to use for interoperable 
communications in the region.
    We are working with them on a possibility of a long-term 
agreement to join the Valley's regional communications network.
    We look forward to continuing that effort and finalizing an 
agreement that will help protect all Salt River and Ft. 
McDowell residents and residents throughout the Valley.
    We support a number of the concepts contained in the 
Committee's white paper that is under discussion.
    Let me point to three specific areas that would be helpful 
to regional efforts to prevent crime and improve collaboration 
between local law enforcement agencies and tribal agencies.
    First, the facilitation of cross-deputization agreements 
between local police agencies and tribal law enforcement.
    We support a program within the Department of Justice to 
encourage and provide technical and other assistance to tribal, 
state, and local enforcement agencies that have completed or in 
the process of entering cooperative law enforcement agreements 
to combat crime on Indian lands.
    Second, increase federal support for hiring and training 
more tribal police officers. That doesn't only help Reservation 
residents; it helps the entire region by putting more police 
officers on the ground who are available to investigate and 
fight crime across jurisdictional boundaries.
    And, finally, as part of the reauthorization of the Indian 
Alcohol and Substance Abuse Act, include more programs for off-
Reservation treatment programs and youth assistance so agencies 
like Native American Connections and the Phoenix Indian Center 
can continue and expand their collaboration with tribes and 
their work to help tribal members who may have relocated to 
urban centers and don't have access to Reservation-based 
programs.
    I appreciate this opportunity to share some of the success 
stories we have had working with Phoenix-area tribes and 
encourage the Committee to continue its work to strengthen law 
enforcement collaboration among and between tribes and federal, 
state, and local governments.
    On behalf of our chief of police, Jack Harris, I would like 
to thank all--and I emphasize all the tribes for the 
communication they have given the Phoenix Police officers in 
protecting our city.
    [The prepared statement of Mr. Gordon follows:]

     Prepared Statement of Hon. Phil Gordon, Mayor, City of Phoenix

Background
    Why is the Mayor of Phoenix testifying at a hearing devoted to 
Native American criminal justice issues?
    Let me share a few facts.
    Phoenix is the largest city in Arizona, a state with 22 tribes and 
several of the largest reservations in the country. We are the 
financial, legal, governmental, and economic center for the state, and 
more specifically, Maricopa County, which has three recognized tribes, 
Salt River Pima-Maricopa Indian Community, Fort McDowell Yavapai 
Nation, and the Gila River Indian Community. In fact, we share 22 miles 
of our southern border with the Gila River Indian Community, one of the 
largest Indian communities in the state.
    In addition, Phoenix has the third most Native Americans living 
within its boundaries of any U.S. city. Of the 10 largest U.S. cities, 
Phoenix has the highest percentage of Native American residents. That 
means we work closely with a variety of organizations, both tribal 
governments and community-based non-profit agencies, on issues as 
varied as cultural and archaeological preservation, affordable housing, 
transportation, and public safety.
    One of my priorities as Mayor has been to facilitate regional 
action on a whole range of issues, including public safety. Crime and 
the criminals who commit crime know no boundaries. As a responsible 
City leader, it is imperative that I help foster cooperation among 
state, tribal, and municipal agencies so that we can make all our 
residents safer, whether they live in the City of Phoenix, on a tribal 
reservation, or in another part of the Valley.
Current Coordination and Collaboration Between the City of Phoenix and 
        Local Tribal Governments
    There are several areas of collaboration between the City of 
Phoenix and local tribal governments that may be of interest to the 
Committee. For example, the Phoenix Police Department has several 
cooperative-use agreements in place with the Gila River Indian 
Community on a variety of issues. Specifically:

  <bullet> We have an agreement spelled out in some detail in a police 
        operations order on the protocol for dealing with fresh 
        pursuits, apprehensions, and investigations that may occur 
        between the City of Phoenix and Gila River.

  <bullet> We have a cooperative-use agreement to share radio 
        communications facilities and provide some microwave links for 
        them for their public safety radio network.

  <bullet> We have also provided radio equipment under a Department of 
        Justice program that has facilitated better inter-operable 
        communications, and our Phoenix Police personnel have met with 
        Gila River staff to work on interoperable communications issues 
        between the Phoenix South Mountain Police Precinct and Gila 
        River.

    In short, the Gila River Community Division of Public Safety has 
been a good partner with the City of Phoenix Police Department and we 
have been happy to work collaboratively to assist them with their 
public safety needs.
    Also, we have reached out to Salt River Pima-Maricopa Indian 
Community and Fort McDowell Yavapai Nation on communications 
initiatives being led by the Phoenix Urban Areas Security Initiative, 
otherwise known as UASI, the Homeland Security Department initiative 
that supports the unique planning, equipment, training, and exercise 
needs of high-threat, high-density urban areas.
    Although there are no specific agreements in place, Phoenix law 
enforcement has met with SRPMIC on several occasions and will be 
providing equipment for them to use for inter-operable communications 
in the region. We are working with them on the possibility of a long-
term agreement to join our regional communications network. We look 
forward to continuing that effort and finalizing an agreement that will 
help protect all Salt River and Fort McDowell residents and residents 
throughout the Valley.
Proposals for Improving Cooperation Between Local Law Enforcement 
        Agencies and Tribal Agencies
    We support a number of the concepts contained in the Committee's 
white paper that is under discussion. Let me point to three specific 
areas that would be helpful to regional efforts to prevent crime and 
improve collaboration between local law enforcement agencies and tribal 
agencies.

  <bullet> The facilitation of cross-deputation agreements between 
        local police agencies and tribal law enforcement. We support a 
        program within the Department of Justice to encourage and 
        provide technical and other assistance to tribal, state, and 
        local law enforcement agencies that have completed or are in 
        the process of entering cooperative law enforcement agreements 
        to combat crime on Indian lands.

  <bullet> Increase federal support for hiring and training more tribal 
        police officers. That doesn't only help reservation residents, 
        it helps the entire region by putting more boots on the ground 
        who are available to investigate and fight crime across 
        jurisdictional boundaries.

  <bullet> As part of the reauthorization of the Indian Alcohol and 
        Substance Abuse Act, include more programs for off-reservation 
        treatment programs and youth assistance so agencies like Native 
        American Connections and the Phoenix Indian Center can continue 
        and expand their collaboration with tribes and their work to 
        help tribal members who may have relocated to the urban centers 
        and don't have access to reservation based programs.

    I appreciate the opportunity to share some of the success stories 
we have had working with Phoenix-area tribes, and encourage the 
Committee to continue its work to strengthen law enforcement 
collaboration among and between tribes and federal, state, and local 
governments.

    The Chairman. Mr. Mayor, thank you very much. Finally we 
will hear from Mr. Mendoza. Mr. Rod Mendoza is Chief of Police 
from the Town of Parker in Parker, Arizona. Mr. Mendoza, you 
may proceed.

  STATEMENT OF ROD MENDOZA, CHIEF OF POLICE, TOWN OF PARKER, 
                            ARIZONA

    Mr. Mendoza. Senator Dorgan, Senator Kyl, it's an honor to 
be here. Thank you very much for this opportunity.
    Let me state, I'm Rod Mendoza. I am the Chief of Police for 
the Town of Parker, Arizona. The Town of Parker is a unique 
situation. My testimony is going to include a summary of the 
1990 agreement between the Colorado River Indian Reservation 
and the Town of Parker.
    This agreement had been the result of a 1989 Strand 
decision. Parker recently celebrated our 100 year township. In 
1989, under the U.S. District Court, Judge Strand ruled that 
the Town of Parker was an Indian Country. It was located within 
the external boundaries of the Colorado Indian Reservation.
    The courts holding that the Town of Parker is in Indian 
Country results in the Town having no legal jurisdiction over 
tribal land within the Parker town limits or any state or 
criminal jurisdiction over tribal members. Or any activities 
that take place in the town of Parker.
    Consequently, tribal members accused of crimes in the town 
of Parker are subject only to tribal and federal law, not state 
or local law.
    Recognizing this need, the Town and CRIT entered into an 
agreement that was designed to coordinate law enforcement 
activities. This agreement is limited to the Town of Parker and 
is relevant only to law enforcement agencies.
    The summary of one of the sections, Section 5, states--
Arrest of Indian Subjects, states: That the Town agrees that 
CRIT will make all arrests of Indians in the town of Parker and 
Parker Police will notify CRIT Police of an Indian involved in 
any activity, criminal activity.
    There is nothing in this language that states that Parker 
Police cannot detain an Indian suspected of criminal behavior, 
nor does it state that the Parker Police cannot detain or 
arrest anyone suspected of criminal activity until the tribal 
status is known.
    So, in other words, if a tribal member comes into the town 
of Parker and spray paints a non-tribal member's wall, Parker 
Police arrives on the scene, we cannot arrest that individual. 
We can try to detain that individual until CRIT police officers 
arrive.
    If a tribal member comes in and smashes a store window, we 
cannot arrest that individual, we can only try to detain that 
individual.
    In cases where a subject is a tribal member, CRIT will 
immediately be notified. Currently the Parker and CRIT police 
officers work well together on the street and both can be 
depended upon to assist each other.
    With this 1990 agreement with CRIT, we have made great 
gains. It shows that we can work together. We are working 
together. Even though there are some problems with this 
situation, we are working those things out.
    Part of the problem is getting the word out to the 
community that this agreement is in fact the Strand decision, 
stating that we cannot arrest tribal members so the non-tribal 
citizens who live within the town of Parker understand the 
situation.
    With that, in July of 2006, we made a press release with 
the CRIT chief of police. CRIT and the Parker Police chiefs met 
and confirmed concerning methods of developing and approving 
police services to our communities.
    Among our concerns were to ensure that those who commit 
crimes in our communities are held accountable and victims of 
these crimes are kept well informed of the progress of the 
investigation.
    Parker Police and CRIT police officers both attend police 
academies and are recognized as state certified police 
officers.
    CRIT police officers can enforce state laws and may book 
violators into the county detention facility or issue citations 
to appear in the town or county court.
    However, CRIT officers cannot arrest non-Native Americans--
may arrest Native--let me back up. CRIT officers may arrest 
non-tribal members but they must be booked into the county 
facility. They cannot be booked into a CRIT facility.
    This is how we are working together. The CRIT Police 
Department will be notified every time a tribal member is 
suspected of committing a crime in the town of Parker.
    The Parker P.D. will investigate all crimes involving non-
Native Americans, CRIT P.D. and Parker P.D. officers will make 
the determination the suspect is Native American.
    Whenever there is not enough evidence to believe the 
suspect is Native American, Parker P.D. will assume control of 
the investigation. Parker P.D. will not arrest--again, this is 
important to understand--will not arrest Native Americans who 
are involved in criminal activity.
    Parker P.D. may detain Native Americans who are committing 
or have committed a major felony or violent crime or if the 
activity will seriously create a life-threatening situation.
    In other words, the one time that Parker Police Department 
will detain a tribal member is if a major crime has occurred or 
someone is going to be seriously injured.
    We do not want to detain a tribal member for a misdemeanor 
where the use of force may have to be involved, so our policy 
is that we will not detain, we will only try to remain in close 
contact until the CRIT Police Department can arrive.
    If use of force is applied to a Native American by a Parker 
police officer, the Parker Police chief and the CRIT police 
chief will meet and discuss the situation within two business 
days. A copy of the report will be given to the CRIT police 
chief.
    Parker and CRIT police agencies are committed to work 
together to meet the needs and concerns of the community, even 
though we are in a unique situation which is viably important 
that all community members are aware of the agreement, 
especially the Strand decision and how we are working together.
    The investigation of criminal activity and the arrest of 
tribal suspects is only the beginning of the criminal justice 
process. An area of major concern among citizens, especially 
crime victims, is whether tribal criminal offenders are held 
accountable.
    It is not uncommon to see offenders back into the community 
the very next day as if they were never arrested or charged 
with the offense. I believe you used the word ``catch and 
release.'' This creates mistrust between tribal members and 
non-tribal members within our community. There is a double 
standard based on tribal status.
    During the four years I have been the Parker Police Chief, 
I have seen a vast improvement in the cooperation between law 
enforcement agencies.
    However, the lack of tribal resources to confine, 
prosecute, and monitor offenders needs to be corrected.
    Juveniles who are arrested for crimes must be transported 
by bus five to six hours after the hearings to be held in an 
approved juvenile facility. Transporting these juveniles is 
costing thousands of dollars to the tribal community.
    If the juveniles are not lodged and transported, they are 
immediately released back into the community without being held 
accountable for their actions. This empowers the juveniles to 
continue with their criminal activity.
    In conclusion, federal funding is needed for tribal 
community justice resources, and it should be of the highest 
priority to ensure that the rights and safety of all are 
equally protected.
    And I also would like to thank Senator Kyl and Ryan Smith 
for their help during the last year, for whenever I had 
questions, I was able to call their office and they were able 
to direct me in the right direction with some good answers.
    And I appreciate the opportunity to be here, and I would 
also like to say that Colorado Indian tribes and the Town of 
Parker are effectively working together to solve this problem, 
but a lot of this comes down to federal funding for criminal 
justice resources.
    If the Colorado River Indian Tribe had the resources and a 
place to detain these people, the non-tribal members in Parker 
would not be blaming the CRIT police officers for not doing 
their job, because they are doing their job. Thank you.
    [The prepared statement of Mr. Mendoza follows:]

  Prepared Statement of Rod Mendoza, Chief of Police, Town of Parker, 
                                Arizona

    My testimony will include a summary the 1990 agreement between the 
Colorado River Indian Reservation (Law Enforcement Agreement 1990) and 
the Town of Parker. The agreement may have been the result of the 1989 
``Strand'' decision (Colorado River Indian Tribes V. Town of Parker 705 
F. Supp. 473).
Summary of the ``Strand'' Decision
    The U. S. District Court, Judge Strand, ruled that the Town of 
Parker was ``Indian Country,'' located within the boundaries of the 
Colorado River Indian Tribes reservation, (18 U.S.C.A. 1151) and 
therefore the Town of Parker did not have legal regulatory authority 
over building activities on lands within the Town that are owned by the 
Tribes. The Town's regulatory authority extended only to the privately 
owned fee lands within the Town. The Court noted that the Tribes own 
approximately one-third of the lands within Parker and that the Town is 
prohibited from preventing the provision of electrical and water 
utility services that the Town of Parker exercises direct or indirect 
control over.
    The Court's holding that the Town of Parker is ``Indian Country'' 
results in the Town having no legal jurisdiction over tribal land 
within the Parker town limits or over tribal members' activities that 
take place anywhere within the boundaries of the Town. Consequently, 
CRIT members accused of crimes in the Town of Parker are subject only 
to tribal and federal law, not State or local law, (Seymour v. 
Superintendent of Washington State Penitentiary, 368 U.S. 351, 82 S. 
Ct. 424, 7 L. Ed. 2nd 346 (1962)).
    In April 1978, Senator DeConcini of Arizona introduced a bill (S. 
2854) for the purpose of granting the State of Arizona (Parker Police) 
criminal and civil jurisdiction over all activities and persons within 
the Town of Parker pursuant to Public Law 280, (CRIT Ex. 24). DeConcini 
recognized that without this legislation Parker was subject to a 
complicated patchwork of state, federal and tribal jurisdiction.
    The bill S. 2854 was introduced as an amendment to 18 U.S.C. sec. 
1162(a) and 28 U.S.C. sec. 1360(a), which would have added Parker to 
the list of areas in Indian Country wherein states are conferred civil 
and criminal jurisdiction (as in California). The Senate failed to pass 
Bill S. 2854.
Summary of the 1990 Law Enforcement Agreement Between CRIT and the Town 
        of Parker
    Recognizing the need, the Town and CRIT entered into an agreement 
that was designed to coordinate law enforcement activities. This 
agreement is limited to the one square mile within the Town of Parker 
and is relevant only to law enforcement agencies. A summary of Section 
5, Arrest of Indian Subjects: states the Town agrees that CRIT will 
make all arrests of Indians in the Town of Parker and the Parker Police 
will notify CRIT Police of an Indian involved in any activity. There is 
nothing in this language that states the Parker Police cannot detain an 
Indian suspected of criminal behavior nor does it state that Parker 
Police cannot detain or arrest anyone suspected of criminal activity 
until the tribal status of the person(s) is obtained.
    In cases where we suspect a person(s) is a tribal member, CRIT will 
be immediately notified for assistance. Currently, the Parker and CRIT 
police officers work well together on the street and both can be 
depended upon to assist one another.
    The Parker Police policy is in conformance with the 1990 agreement 
with CRIT. If Parker police becomes aware a person(s) is a Tribal 
member we will not arrest nor will we detain as long as no one is at 
risk of injury, death or loss of substantial property. The Parker 
Police Department will not place officers in a position where the use 
of force may have to be used against a Tribal member. Every effort will 
be made to notify CRIT and ask for assistance.
    The five most common criminal activities concerning Tribal members 
in the Town of Parker are:

        1. Disorderly conduct,
        2. Thefts,
        3. Assaults,
        4. Public Intoxication, and
        5. Possession of dangerous drugs.

    According to the 2005 International Chiefs of Police Indian County 
Law Enforcement Section; nationally, 1 in 4 cases of violent crime 
investigated by the Untied States Attorneys are from Indian Country. 75 
percent of federal investigations of Indian Country suspects are for 
violent crimes.
Town of Parker--July 31, 2006 Press Release, ``Local Law Enforcement 
        Agencies Meet and Confer to Enhance Police Services''
    On July 7, 2006 the Police Chiefs and patrol supervisors of CRIT 
Police and the Town of Parker Police Departments conducted a symposium 
at the Parker Police Department.
    CRIT and Parker Police Chiefs met and conferred concerning methods 
of developing and improving police services to our communities. Among 
our concerns were to ensure that those who commit crimes in our 
communities are held accountable and victims of these crimes are kept 
well informed of the progress of the investigation. We will not turn a 
blind eye to criminal activity. Injustice anywhere is a threat to 
justice everywhere. Our citizens must feel secure in their homes and be 
free from the fear of crime in their neighborhood.
    Our first agenda item focused on the Town of Parker. As previously 
mentioned, the Parker Police department does not have civil or State 
criminal jurisdiction over tribal members in Indian Country. (Colorado 
River Indian Tribes v. Town of Parker; The Judge Strand decision). The 
jurisdiction responsibility belongs to the CRIT Police Department for 
all State criminal misdemeanor violations, (Seymour v. Superintendent 
of Washington State Penitentiary, 1962).
    Federal law enforcement agencies, the Bureau of Indian Affairs 
(BIA) and the Federal Bureau of Investigation (FBI) have jurisdiction 
in all felony criminal violations and misdemeanor violations concerning 
non-Native Americans who commit crimes against Native Americans, (18 
U.S.C. 1153).
    Parker and CRIT police officers attend a police academy and are 
recognized as State certified police officers. CRIT police officers can 
enforce State laws and may book violators into the county detention 
facility or issue citations to appear in the town or county court.
    CRIT officers who arrest a non-Native American cannot book them 
into the CRIT detention facility. CRIT court has no criminal 
jurisdiction over non-Native Americans. However, CRIT may issue Federal 
misdemeanor citations to non-Native Americans who commit crimes against 
Native Americans, citing them to appear in federal court in Flagstaff 
or in Phoenix, Arizona.
    Equipped with the above information the police agencies will 
continue to improve upon and enhance their joint patrol services and 
investigation procedures within the Town of Parker.

        1. The CRIT police department will be notified and will respond 
        to assist Parker P.D. whenever the possibility of a Native 
        American is involved as either a victim or a suspect.

        2. The Parker P.D. will investigate all crimes involving non-
        Native Americans. CRIT P.D. and Parker P.D. officers will make 
        the determination if the suspect is Native American. Whenever 
        there is not enough evidence to believe the suspect is Native 
        American, Parker P.D. will assume control of the investigation.

        3. Parker P.D. may interview Native American witnesses and 
        victims but will not interview Native American suspects. These 
        interviews will be conducted by CRIT P.D.

        4. All victims of a crime will be contacted by an officer and 
        given an update of the status of their case prior to leaving 
        the scene of the crime. If the victim is unavailable the 
        officer's business card will be left for the victim.

        5. The victim will be given the name of the investigating 
        officer along with a contact phone number and will be kept 
        apprised of the status of their case.

        6. Parker will notify CRIT P.D. whenever they are in pursuit of 
        criminal suspects who flee into Tribal Housing areas, i.e., 
        Desert Sun Housing or Blue Water Park.

        7. Parker P.D. will notify CRIT P.D. prior to interviewing 
        Native or non-Native Americans who reside or are visiting in 
        Tribal Housing.

        8. If a suspect is involved in criminal activity and their 
        tribal status is unknown, he or she will be handled as a non-
        Native American.

        9. Parker P.D. will not arrest Native Americans who are 
        involved in criminal activity. Parker P.D. will detain Native 
        Americans who are committing or have committed a major felony 
        or a violent crime, or the activity will seriously create a 
        life threatening situation, i.e., use of weapons, serious 
        bodily injuries, attempting to drive when seriously impaired. 
        If the decision is made to detain, the officer will notify CRIT 
        P.D. and inform them or our actions and the reason for the 
        detention. We will not detain for misdemeanors. We will provide 
        CRIT P.D. with the information and wait upon their arrival.

        10. If use of force is applied to a Native American by a Parker 
        police officer, the Parker police chief and CRIT police chief 
        will meet and discuss the situation within two business days. A 
        copy of the report will also be given to the CRIT P.D. chief.

        11. Whenever Parker police officers stop a vehicle for a 
        traffic violation and the occupants are discovered to be Native 
        Americans, the officers will not issue a citation, nor search 
        the vehicle or run warrant or registration information. If 
        necessary, the officer will call for CRIT P.D. for assistance 
        and they will take the necessary action.

        12. Parker P.D. will immediately respond to any location that 
        CRIT P.D. has requested help or assistance.

        13. CRIT and Parker P.D. will maintain a united front and will 
        publicly support each agency. If concerns arise, they will be 
        immediately addressed by the Chiefs of each agency.

        14. CRIT P.D. is currently in discussion for their officers to 
        issue federal misdemeanor citations to non-Native Americans who 
        commit crimes against Native Americans.

        15. The two police agencies will conduct joint meetings or 
        training sessions quarterly.

    The Parker and CRIT police agencies are committed to work together 
to meet the needs and concerns of our communities. The quality of life 
that we enjoy in Parker needs to be unsurpassed. Our families can go 
out together for walks during the hours of darkness; our children can 
walk or ride their bikes to school without the fear of becoming a 
victim to random acts of violence as other families do in communities 
across our Nation.
    The criminal problems we face in Parker are committed by a small 
percentage of our population. CRIT Police Chief and I are both united 
in our concerns and commitment to provide excellent police service and 
response to your concerns.
    If you have questions or concerns please contact the Colorado River 
Indian Tribal Police Department or me at the Parker Police Department.
Additional Concerns
    The investigation of criminal activity and the arrest of tribal 
suspects is only the beginning of the criminal justice process. An area 
of major concern among citizens, especially crime victims is the 
whether tribal criminal offenders are held accountable. It is not 
uncommon to see offenders back in the community the next day as if they 
were never arrested or charged for the committed offense.
    During the four years I have been the Parker Police Chief, I have 
seen a vast improvement in the cooperation between law enforcement 
agencies. However, the lack of tribal resources to confine, prosecute 
and monitor offenders needs to be corrected. Juveniles who are arrested 
for crimes must be transported by bus for six hours after their hearing 
to be held in an approved juvenile facility. Transporting these 
juveniles is costing thousands of dollars to the tribal community. If 
the juveniles are not lodged and transported they are immediately 
released back into the community without being held accountable for 
their actions. This empowers the juveniles to continue with their 
criminal activity.
    Funding for tribal criminal justice resources should be of the 
highest priority to ensure the rights and safety of all are equally 
protected.
References
    International Chiefs of Police Indian County Law Enforcement 
Section
    Elaine Deck, Section Liaison, Telephone 800-843-4227 ext. 262
    Power point presentation ``New Challenges for BIA-OLES,'' 2005 
annual meeting.
    Seymour v. Superintendent of Washington State Penitentiary, 368 
U.S. 351, 82 S. Ct. 427, 7 L. Ed. 2nd 346 (1962).
    United States District Court, D. Arizona.
    Colorado River Indian Tribes, an Indian Tribe, Plaintiff, v. Town 
of Parker, a Municipal Corporation, et al., Defendants
    No.CIV-83-2359-PHX-R6S. January 17, 1989. Judge Strand.
    18 U.S.C.-1151(a). Indian country & Dawes act/general allotment 
act.

    The Chairman. Mr. Mendoza, thank you very much. Mayor 
Gordon, let me ask you. You talked about the agreement that you 
have with the Gila River Reservation and the Tribal Council.
    Is there any cross-deputization between the two law 
enforcement agencies of Phoenix and the Gila River?
    Mr. Gordon. Actually our commander is knowledgeable on the 
issue, with your permission, to answer that.
    The Chairman. There is another question that goes with 
that, and that is because you share a 22 mile border, I would 
ask: If there is hot pursuit, for example, that crosses the 
border from Phoenix into the Gila River Reservation, can the 
Phoenix Police Department continue that hot pursuit?
    Mr. Smith. There is no cross-deputization. We did pursue 
it. We have--Mr. Chairman, Alan Smith with the Phoenix Police 
Department. There is no cross-deputization, that we have kind 
of an understanding of what each other's roles are but, like I 
say, there is no cross-deputization.
    The Chairman. If you are engaged in a hot pursuit of a 
vehicle that has done something you think is significant and it 
crosses into the Gila River Reservation, the Phoenix Police 
Department is in hot pursuit?
    Mr. Smith. Yes, that is correct. We will continue it.
    The Chairman. And your relationship with the Gila River law 
enforcement is such when you continue that pursuit and arrest 
the perpetrator, if it's someone from the Reservation, you then 
would hand that person over to the Gila River law enforcement?
    Mr. Smith. That's correct. What we would need do is arrest 
if it's a non-Native Indian or detain that person. So depending 
upon the circumstances.
    The Chairman. Thank you very much. I appreciate your help. 
It's an interesting situation in Colorado because in Arizona 
you have a pretty substantial population of Native Americans 
and a good number of Reservations and coterminous with cities. 
Parker is a different situation. How many people live in 
Parker?
    Mr. Mendoza. 3,500.
    The Chairman. And you are surrounded completely by Indian 
Reservation; is that correct?
    Mr. Mendoza. Yes, that is correct.
    The Chairman. I'm asking. Let me go to the U.S. Attorney's 
Office. One of the things that we have talked about is FBI 
presence.
    The FBI presence in Indian Country has dropped sharply 
since 2001, and in 1998 and in 2000, early 2000, we included 
money specifically to increase 30 new FBI agents who had 
focused solely on Indian Reservation crimes so we will have 
added 30 FBI agents for that specific purpose, and now post 9/
11, 18 of those new FBI agents are gone. They are working on 
terrorism. So we lost a fair amount of the FBI presence that we 
had funded.
    Funding for U.S. Attorney's Offices has nearly doubled 
since 1998, but the federal Indian Country prosecutions have 
fallen in the last five years, right about 26 percent.
    There was an investigative story by the Denver Post that 
showed over the past ten years they have declined to prosecute 
two-thirds of Indian Country cases nationally.
    I don't know the veracity of those numbers except that the 
anecdotal information from tribes themselves tell me that 
there's still some problems here, and at least it looks to me 
like the FBI resources, the additional FBI resources we tended 
to put into Indian law enforcement did not get there.
    I want to ask you a question about due process because you 
raised, properly I think, a question about due process if the 
tribal courts would ever be given jurisdiction to prosecute 
non-Indians.
    You are concerned about the due process.
    Should we be concerned about due process with respect to 
tribal courts and the prosecution of Indians. Is there a due 
process issue, do you think, on Indian Reservations?
    Ms. Humetewa. I cannot speak blanketly as the Senator--as 
both Senators Kyl and as you know, there are over 562 federally 
recognized tribes and each has a unique tribal criminal justice 
system, and so I couldn't answer that generally.
    But I think because the Department does not have particular 
language, particular legislative language before it, we just 
raised that as an issue that just generally due process should 
be addressed in any proposal.
    The Chairman. It's a fair point, and I would agree with it, 
that if we have a certain status where a tribal court has 
jurisdiction over non-Indians, we have to make certain that all 
of the constitutions are guaranteed, due process and so on 
would be certain there.
    You indicate in your testimony something that I was 
surprised by. You seem to indicate that there is no gap with 
respect to jurisdiction, and I think most testimony tells us 
there is in fact a gap.
    There is substantial declination. There is a problem 
certainly in enforcement but also in jurisdiction. Are you 
telling us that there is no gap in jurisdiction here?
    Ms. Humetewa. For every crime that is committed, for 
example as was pointed out by President Enos, if someone 
commits a crime here in the community, either tribal government 
will have jurisdiction, the state county attorney's office, 
Maricopa County for this particular area, can have jurisdiction 
dependent upon the particular circumstance of the crime, or if 
it falls into a major crime act violation, the U.S. Attorney's 
Office would address that prosecution, or if it's a non-Indian 
and it rises to a particular level of felony offense or even in 
some circumstances not, then the U.S. Attorney's Office would 
then look at it for potential felony crime jurisdiction under 
18 U.S.C. 1152 so there is a court to address those offenses. 
That's what I meant by that.
    The Chairman. But on the enforcement side, the same article 
that I referenced, which was really I think an interesting 
article, which quoted one U.S. attorney not by name but quoted 
a U.S. attorney who said my gun cases have to compete, my white 
collar cases have to compete. One criteria that's never on the 
list of what I need to be doing are Indian Country cases.
    And we had testimony before our Committee of a former U.S. 
Attorney in Minnesota who said, you know, frankly, I was 
criticized by the Department because I was spending too much 
time on Indian law enforcement.
    And what that gets to is the question is there appropriate 
enforcement? And that gets back to the question of declination.
    You describe why declination is probably something that's 
very hard to get at, but I think most people feel that a 
substantial amount of enforcement is not pursued very 
aggressively. Your response?
    Ms. Humetewa. Chairman Dorgan, your question is two-fold, 
if not three-fold. First, on the issue of declination, let me 
clarify that every case that is submitted to our office by a 
federal investigative agency is reviewed to determine whether 
or not it meets the elements of a particular federal offense.
    In other words, is there sufficient evidence to prove 
beyond a reasonable doubt if we had to go to trial whether we 
had physical evidence, eye witness testimony, and the like that 
we could bring that individual to justice if a trial were ever 
to be conducted. So we look at the particular circumstances of 
each and every case.
    The statement about declination reports or referrals is 
problematic to me in that, as I mentioned in my testimony, both 
in my oral statement and written testimony, so long as the 
statute of limitations has not run on a particular offense, be 
it homicide, assault, child sexual abuse, we have the 
opportunity to review fresh evidence, new eye witness accounts 
to reconsider whether or not we now today have sufficient 
evidence to go forward on a case that may have been declined 
two months ago.
    So to issue a report on declinations today would create a 
problematic, I think, accounting of what actually is occurring 
on a day-to-day basis in any prosecutor's office.
    The Chairman. My question is not about your role as U.S. 
Attorney because, as I said, I was proud to support your 
nomination. But just give me your observation of the Department 
of Justice statistics that suggest 27 percent--nearly a 30 
percent decline in FBI investigated activity since September 
2001.
    We all know that from the September 2001 terrorist attack, 
a lot of resources moved in that direction, but since that time 
nearly 30 percent reduction in FBI investigative activity at a 
time when the crime rates, I think from most evidence I have, 
is increasing.
    Give me your observation about that. Isn't that a 
disconnect in terms of whether we are moving toward this issue?
    Ms. Humetewa. I do recall reading the Denver Post article 
that you referred to----
    The Chairman. This didn't come from the Denver Post. This 
is DOJ data.
    Ms. Humetewa. I have to say, Chairman Dorgan, that I have 
not read or looked at the particular study that you are 
mentioning in preparation for this testimony, we did provide to 
the Committee that there has been a 7 percent increase in 
special agents in Indian Country in the FBI since 9/11 so that 
seems to be contrary to the information that you have, and I 
would be happy to go back and look at that.
    I can say in terms of my experience not just as the United 
States Attorney but also as a former tribal liaison for the 
U.S. Attorney's Office and as a former U.S. Attorney 
prosecuting violent crimes of the Indian Reservations in 
Arizona that there is a very strong commitment by not just 
those in the federal law enforcement family, but in addition 
the individual criminal investigators and police officers in 
Indian Country to go after these individuals who are committing 
these offenses, in addition to my colleagues in the U.S. 
Attorney's Office addressing and looking at the particular case 
referrals that come in on a case-by-case basis to make sure 
that justice is delivered in Indian Country.
    The Chairman. Mr. Mendoza, finally, the Town of Parker and 
the surrounding Reservation, have you talked about cross-
deputizing?
    Have you had discussions with the Reservation officials 
about whether they would like to cross-deputize?
    Mr. Mendoza. We have talked about that, and a few of our 
officers have attended the Academy, but we have not been cross-
deputized.
    Ours is a unique situation, as I explained, with Parker 
being part of a Reservation. What we are trying to avoid is any 
type of conflict between the tribal member and Parker Police 
Department.
    What I mean by that is the last thing we want to do is have 
a relationship destroyed based upon reports that we had used 
force on a tribal member on a Reservation, and that's what we 
are trying to avoid at all costs, and I think we are successful 
in that endeavor by going with the current agreement that we 
have. So, the answer to your question is no, we have not cross-
deputized on the Reservation.
    The Chairman. Finally, Mayor Gordon, do the Phoenix law 
enforcement officers do cross-training with Gila and other law 
enforcement agencies in the state?
    Mr. Gordon. We have done cross-training, Senator, and we 
welcome that opportunity both ways.
    The Chairman. The interoperability for radio transmission I 
thought was interesting. When was that initiated?
    Mr. Gordon. Actually the concept of interoperability I 
think Phoenix started before 9/11 with the Native American 
communities and the state about four years ago. And Senator 
Kyl, Senator McCain, and yourself helped actually implement 
that interoperability agreement.
    The Chairman. Senator Kyl?
    Senator Kyl. Thank you. I would like to thank all three 
witnesses for being here. First of all, Mr. Mendoza, as I 
distill what you said, as the primary problem the fact that you 
will have primarily juveniles but members of the tribe who 
engage in misdemeanor activity or nonthreatening activity which 
results not in their arrest or their detention if they are not 
willing to be detained voluntarily, I gather you don't use 
force to detain them.
    Isn't the problem that the kids know that now and they kind 
of thumb their nose at it and say ``you can't hold me'' and 
they take off? Is that the issue?
    Mr. Mendoza. I would agree with that issue a hundred 
percent. The tribes are only able to arrest these juveniles. 
They have nowhere to put them, but the juveniles that and they 
know that Parker Police Department cannot detain, cannot arrest 
or do anything to them. So when they are released back into the 
community, usually an hour after being arrested by CRIT, they 
are back in the community.
    The community looks at this and they are blaming the tribal 
community for not caring about them, not caring about their 
property or----
    Senator Kyl. You are persuaded that if they had the 
detention facility, the Reservations, that problem could 
largely go away?
    Mr. Mendoza. If they had the resources, I'm sure of it.
    Senator Kyl. I could get into that in a closing statement, 
Mr. Chairman. Let me ask our U.S. Attorney a couple of 
questions here.
    First of all, I think Senator Dorgan really put his finger 
on the question and we really don't have the answer here today. 
The real question, I guess, is why declination.
    In other words, you have pointed out that there are a lot 
of reasons why any prosecuting office would decline to take a 
case at least at that time, and there may be some additional 
factors that relate to the unique situations regarding Indian 
Country.
    But the question is if you account for all of those reasons 
why a case may not be taken, is one of the reasons also that 
there is simply a lack of resources which cause you to have to 
prioritize with the result that you take more serious cases and 
simply don't have the resources, whether it's the FBI 
investigating or your office to prosecute?
    Ms. Humetewa. Senator, in my experience, again, as a 
prosecutor, as a trained prosecutor, I have to look at every 
individual case and the evidence behind it to determine whether 
or not in the first instance we have probable cause to charge 
an individual.
    And I have to say that in this district and, again, I 
understand that this may be the exception rather than the rule.
    We work with very well-trained and well-qualified and well-
experienced criminal investigators such as comes out of 
Director Cowboy's office on a Navajo Nation, the Gila River 
Indian Community, the Salt River Community.
    These individuals have gone through an extensive level of 
training not just through our cross-deputization program but 
also the Arizona Department of Public Safety Program. They have 
Arizona Post certification so that provides them additional 
authority within their communities.
    Now, it's fair to say that from time to time we do have 
issues with respect to gathering of evidence, gathering of 
witness statements, items that may turn stale and may then 
hamper our ability to go forward on a particular prosecution, 
but I suspect that the U.S. Attorney's Office and the various 
counties and cities and states that's not--not un-unique I 
should say. It's not a unique problem for us. I think 
prosecutor's offices throughout the nation experience that same 
type of situation.
    Certainly I have to say, again, that many of the tribes in 
Arizona do have the expertise and they have been investigating 
these types of cases for a long time, and quality product may 
vary from time to time, but we do what we can with what we have 
and we have to, again, consider each case on a case-by-case 
basis to determine whether or not it meets the elements of an 
offense before we can charge an individual.
    Senator Kyl. There is great criticism of the U.S. 
Attorney's Offices, particularly in the Southwest and even in 
Arizona by--it's not criticism. It's frustration, I guess I 
will express it that way, that the U.S. Attorney's Office can't 
take a lot of the so-called smaller drug cases involving border 
crossing that the U.S. Attorney's Office has a fairly high 
threshold and the county attorneys are relegated to taking the 
smaller cases and that you take the more major cases. That's a 
matter of prioritization, and I think we all understand that.
    Given the fact that the federal jurisdiction over non-
Indians on a Reservation relates to major crimes, I gather from 
what you are saying here, you give that a high priority and 
your primary restraint is not a matter of lack of resources as 
a result of which you can't prosecute the cases, but simply the 
usual constraints that any prosecutor's office would have in 
marshalling the evidence and making decisions of whether to 
prosecute or not. Is that a fair statement?
    Ms. Humetewa. Absolutely. We take our responsibility to 
prosecute major act violations very seriously.
    Senator Kyl. I'm going to make a statement. If you can't 
comment on it, fine, but you are not a member of the bench yet 
and maybe it's unfair, but you raised an issue in your 
testimony there are--as a matter of law, the United States 
Constitution does not protect non-Indian constitutional rights 
or all non-Indian constitutional rights on the Reservation.
    And the question is whether or not a constitutional right 
could be protected by statute rather than the means by which 
constitutional rights are traditionally protected, which can be 
by statute but go beyond statute, habeas corpus being one of 
the ways.
    Is that part of the reason for the concern that you 
expressed in your testimony?
    Ms. Humetewa. The Department has that concern along with 
other concerns that rise to the level of constitutional and due 
process rights, yes, Senator.
    Senator Kyl. I would like to make a bit of a closing 
statement, but should I just go ahead and do that now?
    I really appreciate and, again, I want to thank you for 
holding this hearing. It's evident that Congress needs to do a 
lot more than it has, and I suspect the administration as well, 
and I do want to submit some questions to some of you.
    One of the things that I'd like to ask all of you, and this 
applies to other Indian tribes in the State of Arizona--we will 
try to get this question out to everybody.
    And this is the basic question. Chairman Enos testified to 
the rather fortunate situation where because of the 
circumstances of the community here, most if not all of the 
resources necessary for the criminal justice system including 
detention can be satisfied in tribal resources.
    The question is, what extent is that true on your 
Reservation, the other Reservations, and to what extent do you 
need the Federal Government to step in with Federal funding?
    And I'd really like to get very explicit answers to that if 
we could, both in terms of amounts and also the types of things 
from helping with officers, to vehicles, to detention 
facilities, to judges, defenders, the whole gamut--courtrooms 
even.
    I have always thought for example, Mr. Chairman, that the 
COPS Program, which was supposed to be temporary when we first 
adopted it--and I was one of Republicans in the House that 
supported it, with some political blow-back, I might add. But I 
supported it because it was supposed to be temporary, but there 
is a part of it, it seems to me, that doesn't need to be 
temporary.
    There is a Federal nexus or a Federal responsibility to 
provide law enforcement on Federal Reservations, meaning 
military Reservation, Indian Reservations, Indian land.
    I look at the Tohono O'odham which has a very large part of 
their border with the country of Mexico and are impacted with 
the drug trade and so on.
    And it seems to me that with the controversy with the COPS 
Program, something that every member of Congress ought to be 
able to agree on, is that at least as to the Federal nexus 
here, we ought to be all to fully fund law enforcement 
officials on those Reservations.
    So it's a program that already exists. It's a program we 
found money for in the past, and it seems to me there is a 
perfect justification to take more of that, given the fact that 
there is not sufficient money spent by the Federal Government 
on enforcement on the Reservations.
    But the last point I want to make is I'm well aware that 
that's only the first step. You have to find the resources for 
all of the other parts of the criminal justice system in 
addition to that, and I'd really like to get an explicit answer 
from each of the tribes as to what they think their needs are 
so that we can begin to get a handle on the magnitude of the 
problem, and certainly this hearing will help us take the 
evidence back to Washington to justify the requests that I 
suspect we'll be making.
    The Chairman. Senator Kyl, thank you very much. I think 
that it is the case, notwithstanding the jurisdictional issues 
and other issues, that we are desperately short of funding for 
a wide range of issues.
    There is a report that has been done, a report that was 
contracted for by the BIA. It's now awaiting release. It has to 
go through the Office of Management and Budget.
    I asked that it be released. It's the position of retention 
facilities and jails and so on on Indian Reservations. The 
taxpayers have paid for that report, but we don't have access 
to it at this point, despite the fact it's been done for some 
while.
    I think the reason we are not given access to it is it's 
going to show a desperate situation. I have walked into 
detention facilities and seen a teenage boy laying on the floor 
intoxicated in a facility that housed adults and a facility in 
disrepair. That can't continue. It can't happen.
    Much of the testimony we heard today was about the lack of 
detention facilities, and when you do decide you have to detain 
them, you put them on a bus for four or five or six hours--or 
transport them, rather, for four to six hours away from their 
family, away from their Reservation.
    So we just have a lot of challenges to deal with. The 
facilities is one. The court system is another. Adequate 
financing for all of these issues.
    But just at the starting line, if you are 40 percent short 
of the number of law enforcement officials you need to provide 
adequate law enforcement on Indian lands in the country, you 
start with the disadvantage that you can never overcome. And 
that's just a fact.
    So we have got to try to put this together in a way that 
works. Some of it's going to require additional funding. Some 
of it's going to require some innovative approaches, and the 
Committee is anxious to work with all of the Indian 
Reservations and consult with you. We appreciate the testimony 
that's been provided at this hearing. I will submit some 
additional questions to the witnesses.
    Mr. Mayor, thank you for being with us today as well. And 
Senator Kyl, again, thanks for your work. Senator Kyl and I and 
Senator Murkowski and other members of the Indian Affairs 
Committee will be continuing to work on this and a wide range 
of other Indian issues, and we ask for your cooperation as we 
proceed. This hearing is adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Joe Shirley, Jr., President, Navajo Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of Hon. Daniel Eddy, Jr., Tribal Chairman, Colorado 
                          River Indian Tribes

Introduction
    Mr. Chairmen, Members of the Committee, Senator Kyl and guests. I 
want to thank you for this opportunity to appear before your committee 
today to discuss law enforcement issues in Indian Country. I am Dan 
Eddy, Jr., Chairman of the Colorado River Indian Tribal Council and 
today I will highlight some of the law enforcement problems that we 
face on our reservation today. I can assure you that our problems are 
not unlike many others in Indian Country. This is an issue of 
increasing importance to all of us and we are grateful that the 
Committee has dedicated this time and these resources to advance the 
discussion of our concerns and needs.
    The Colorado River Indian Tribes (``CRIT'') is facing the same 
dilemma as many Indian tribes across the nation with its Tribal Justice 
System where it is severely under-funded by the Federal Government. The 
BIA funds approximately 30 percent of the cost needed to operate law 
enforcement and detention programs and CRIT is left with the burden to 
absorb the rest of the costs. CRIT Uniformed Police and Adult Detention 
Programs are severely under-funded and CRIT has repeatedly objected to 
the shortfall in funding.
    Further, even though CRIT has retroceded its P.L. 93-638 Contract 
for Juvenile Detention, the BIA has not fulfilled its obligations by 
failing to transport CRIT juvenile offenders in a timely manner. The 
most alarming of these incidents was when a Minor was not transported 
back to the reservation until thirteen (13) days after her scheduled 
release time. To-date, CRIT is holding five (5) juveniles that are 
awaiting transport from the BIA. The longest stay period has been over 
three (3) months for one of these juvenile offenders. CRIT is now 
forced to release these juvenile offenders because the Temporary 
Holding Facility is not appropriate for long-term detention. Not 
surprisingly, juvenile recidivism on the reservation is very high. 
Further, CRIT was reimbursed only $250,000 out of the $680,000 owed by 
the BIA in April, 2007. To date, eleven (11) months later, CRIT has not 
seen any additional payment.
    CRIT's three (3) programs (Juvenile Detention, Adult Detention, and 
Uniformed Police) will be discussed below in detail.
I. Juvenile Detention
    In May of 2004, the BIA removed all CRIT juveniles from the CRIT 
Juvenile Detention Facility on the reservation. The reason that the 
juveniles were removed was because the youth facility was connected to 
the adult detention facility and did not meet the Department of Justice 
requirements for sight and sound separation between the adult and 
juvenile detainees.
    CRIT juveniles are now housed at the Gila County Juvenile Detention 
Center in Globe, Arizona, five (5) hours or 250 miles away from the 
reservation. However, the National Institute of Corrections has a 
regulation that mandates that no individual subject to incarceration 
under the Federal system and Federal guidelines can be incarcerated at 
a facility more than 200 miles from his/her home. The BIA is currently 
violating this regulation.
    Unfortunately, the many families of these juveniles are unable to 
physically visit with the detainees. Even a trip to Globe is 
unattainable for those families with little to no income and no means 
of transportation.
    With our present situation, it is very difficult to deliver mental 
health and substance abuse services to the juvenile detainees in Globe; 
therefore, CRIT juveniles are not receiving any of these much needed 
services. If these juveniles were on or closer to the Reservation, CRIT 
Behavior Health Services and the Alcohol and Substance Abuse Program as 
well as the Juvenile Probation Department, would be able to adequately 
serve these children.
    Having the BIA assume this transporting duty has lead to another 
grave problem--CRIT juveniles were not being transported back to the 
reservation in a timely manner pursuant to CRIT court orders for 
release or hearings. The most alarming of these incidents was the non 
compliance of transport by the BIA on a Release Order issued by CRIT 
Juvenile Court; the Minor was not transported back to the reservation 
until thirteen (13) days after her scheduled release time. The 
transport of these juveniles occurred only after a formal letter from 
the CRIT Chairman was sent to the BIA Supervisory Corrections Officer 
in Phoenix.
    Further, until they are transported to Globe, CRIT juveniles are 
being held at CRIT Temporary Holding Facility, which under its current 
condition, is only appropriate to hold juveniles on a temporary basis. 
However, since the BIA cannot locate available facilities to take 
juvenile offenders, these children remain at CRIT Temporary Holding 
Facility up to several months. To-date, CRIT is holding five (5) 
juveniles that are awaiting transport from the BIA. The longest stay 
period has been over three (3) months by one of these juvenile 
offenders. Initially, the BIA picked up these children within forty-
eight (48) hours of a transport order. CRIT is now forced to release 
these juvenile offenders because the Temporary Holding Facility is not 
appropriate for long-term detention. Not surprisingly, juvenile 
recidivism on the reservation is very high.
    To make matters worse, CRIT expended approximately $680,000 of its 
own funds from 2005-2007 in the performance of BIA transport duties 
alone for these juvenile offenders, without factoring in management and 
housing costs when BIA fails to relocate them to an appropriate 
detention center; these additional costs are approximately another 
$250,000 conservatively. After a long and exhaustive engagement with 
the BIA, which went all the way up to the Director of Law Enforcement, 
CRIT has been reimbursed only $250,000 out of the $680,000 owed as of 
April, 2007. To date, eleven (11) months later, CRIT has not seen any 
additional payment.
    Currently, CRIT Juvenile Detention Program costs the Tribes 
approximately $240,000 annually.
II. Adult Detention
    The BIA's proposed base-funding for the P.L. 93-638 Contract for 
Adult Detention is $270,000 for the 2008 fiscal year. The total 
projected program cost is approximately $760,000 each fiscal year. 
Since the beginning of 2007, the Tribe has complained about the 
shortfall in funding. The projected BIA funding only covers 
approximately 36 percent of the cost to operate this program; CRIT 
absorbs 64 percent of the cost.
    In 2007, as a result of the shortfall, CRIT Tribal Council took 
action not to re-contract the adult detention program. In late April, 
in reliance on a promise of additional funding from the BIA, the Tribal 
Council took action to extend the 2006 Adult Detention P.L. 93-638 
Contract to June 30, 2007. This extension was made in reliance on the 
following additional funds being made available to CRIT: (1) an 
increase in funding by $180,000 and (2) the restoration of 
approximately $30,000 in 10 percent hold-back funds. These funds were 
to carry the program to the end of the federal fiscal year on September 
30, 2007.
    In June, the BIA asked the Tribe to extend the 2006 Adult Detention 
P.L. 93-638 Contract to December 31, 2007. CRIT asked the BIA to 
retract the request, as it was our understanding the additional funding 
the BIA agreed to provide was only intended to carry the program to the 
end of the federal fiscal year (September 30) not the end of the 
calendar year (December 31). However, BIA did not retract the letter 
and the Tribal Council Chairman agreed to extend the 2006 P.L. 93-638 
Contract to December 31, 2007.
III. Law Enforcement
    The BIA's proposed base-funding for the P.L. 93-638 Contract for 
Uniformed Police (Law Enforcement) for the 2008 fiscal year is 
$673,000. The total projected program cost is approximately $2,115,000 
annually. Thus, the BIA funding only covers approximately 32 percent of 
the total cost and CRIT absorbs 68 percent of the cost.
    CRIT has been very conservative with the Uniformed Police budget 
due to the extreme shortfall in funding. Unfortunately, our 
conservative spending puts our Police Department at a disadvantage 
because neighboring cities pay at a more competitive rate with a more 
competitive benefit package. Hence, CRIT's turnover rate for Uniformed 
Police is alarmingly high, around 50 percent between 2006 and 2007.
    As a consequence of the high turn over rate, CRIT Officers are 
placed in a compromising position where they work long hours to 
compensate for the lack of adequate staffing. This leads to both 
physical and mental health issues for the Officers and safety issues 
for the Reservation.
Conclusion
    It is evident from that the BIA is failing in its fiduciary and 
other legal obligations to CRIT. The shortfall in law enforcement and 
detention funding is exposing CRIT to very serious foundational 
problems such as a lack of safety and order on the Reservation. 
Moreover, even when the BIA assumes the responsibility such as the 
holding of juvenile detainees, it even fails to do so. Additionally, 
CRIT needs to be reimbursed by the BIA for the outstanding balance of 
approximately $500,000 for the costs of services provided. To-date, 
eleven (11) months later, CRIT has not heard a word from the BIA 
regarding this amount owed.
                                 ______
                                 
   Prepared Statement of Carl J. Artman, Assistant Secretary, Indian 
                  Affairs, Department of the Interior

    Mr. Chairman and Members of the Committee, I am pleased to provide 
this statement for the record on behalf of the Department of the 
Interior regarding Law and Order in Indian Country. The Bureau of 
Indian Affairs (BIA) has a service population of about 1.6 million 
American Indians and Alaska Natives who belong to 562 federally 
recognized tribes. The BIA supports 191 law enforcement programs with 
42 BIA-operated programs and 149 tribally-operated programs. 
Approximately 78 percent of the total BIA Office of Justice Services' 
(OJS) programs are outsourced to Tribes.
    The OJS provides a wide range of justice services to Indian 
country, including police services, criminal investigation, detention 
facilities, tribal courts, and officer training by the Indian Police 
Academy.
    Indian country law enforcement provides services to a population 
that is predominantly under the age of 25 and experiences high 
unemployment rates, and lacks municipal infrastructure. Indian lands 
range from remote wilderness to urban settings. The close proximity of 
a number of reservations to the international borders of Mexico and 
Canada make these locations the perfect targets for drug trafficking 
and other smuggling operations. Recent reports and news articles 
outline the challenges faced by criminal justice systems in Indian 
country. Crime rates on most reservations are unacceptably high.
    The Indian Law Enforcement Act of 1990 (25 USC 2801) and the 
regulations contained in Title 25 of the Federal Code of Regulations 
provides the statutory and regulatory authority for the BIA. Under this 
statute, the BIA provides basic police and corrections services while 
other federal agencies such as the Department of Justice (DOJ), the 
Federal Bureau of Investigations (FBI), the Drug Enforcement 
Administration (DEA), and the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) also have responsibilities to investigate crimes in 
Indian country.
Strengthen Tribal Justice Systems and Recruitment/Retention Efforts
    The Department of Interior's BIA provides several programs designed 
to strengthen Tribal justice systems. For example, the BIA operates the 
Indian Police Academy (IPA), which provides basic police training (16 
weeks) and a variety of other police, jail and radio dispatch courses 
for tribal and BIA law enforcement and corrections officers. The IPA is 
co-located with the Department of Homeland Security's Federal Law 
Enforcement Training Center (FLETC) at Artesia, New Mexico. The IPA 
staff provide basic coursework in policing, criminal investigations, 
and detention. In addition, the IPA offers numerous advanced training 
courses such as child abuse investigation procedures, domestic violence 
training, community policing, drug investigation, use of force, 
firearms instruction, archeological resource protection, police 
management and supervision, crime scene processing, detention, and 
dispatcher training.
    Our training partnership has proven to be very cost effective 
because we share trainers and facilities. The BIA and tribal criminal 
investigators receive specialized advanced training at the main FLETC 
facility in Glynco, Georgia. Select BIA and tribal law enforcement 
managers also participate in the FBI's National Academy in Quantico, 
Virginia. Many tribal communities choose to use respective state Peace 
Officer Standards and Training courses to supplement training of their 
police.
    Upon completion and graduation, the officers have the requisite 
Federal credentials to be commissioned to serve their communities. The 
training programs are unique to Indian country policing and are similar 
to other Federal policing and corrections training required by other 
Federal law enforcement agencies serving the Federal Government. 
Additionally, the OJS provides training for tribal court personnel, 
which is sponsored by the OJS Office of Tribal Justice Support and by 
the Tribes themselves. It is the BIA's goal to ensure all training 
programs are offering the best possible training to tribal and BIA law 
enforcement, corrections, and tribal court staff. For the Committee's 
information, please find attached Table A, which outlines the number of 
training classes offered and the number of officers trained in FY 2007.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition to the BIA's efforts to strengthen tribal justice 
systems, the BIA has centralized its law enforcement, corrections and 
tribal courts programs within one program management area titled, the 
Office of Justice Services (OJS). This organization allows for a 
centralized focus of the administration and management of basic justice 
services as well as lending to a cohesive approach to program 
implementation that allows for unity and cooperation throughout 
programs.
    In an effort to improve recruitment and hiring within all service 
areas, the OJS is implementing a Recruitment Plan that includes task 
items for short, intermediate, and long term planning efforts. These 
efforts include, but are not limited to, increasing the personnel staff 
available to process and track status on OJS personnel actions; 
implementing age waivers; awarding a contract to improve recruitment 
efforts at colleges and the military to obtain better qualified 
applicants; improving and streamlining the process for background 
checks; and investigating the use of other manpower resources from 
other qualified law enforcement providers.
Crime Rate Data Collection
    The BIA's crime data are collected by the OJS through monthly crime 
reports that are submitted by Indian Country jurisdictions (tribes and 
BIA law enforcement). The method currently used by OJS is as follows: 
crime reports that are collected are entered into an automated database 
tool that gathers law enforcement statistics at the lowest level. Crime 
data are entered at the field from the individual law enforcement 
agencies that are implementing policing programs. Tribal policing 
programs without direct access to the BIA's automated database tool 
submit hard copy information to their respective districts for input 
into the system. Crime data information submitted for entry into the 
system is verified by the agency and then is reviewed a second time at 
the District Commander level. The District Commander must then provide 
final approval before the crime data are used at the Headquarters 
Office for quarterly performance reporting and the development of other 
statistical reports. It should be noted that internet restrictions 
hinder the timely collection of crime data. For the Committee's 
information, please find attached Table B, which outlines the FY 2007 
crime statistics.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In its effort to provide technical assistance to Tribes to 
establish management information systems for tribal collection of crime 
data, the OJS is considering the feasibility of the Incident Management 
Analysis and Reporting System (IMARS), which is a Department-wide 
information collection, analysis, and reporting system initiative. 
IMARS was proposed by the National Park Service in 2003 and is 
currently in Phase II of development. The concept behind IMARS is to 
provide a common information sharing capability across all 
participating functional areas within DOI for capturing and reporting 
law enforcement, emergency management, and security incident 
information. Once IMARS is available Department-wide, the OJS will 
determine the feasibility of providing an opportunity for tribal 
collection of crime data using IMARS.
Special Law Enforcement Commission (SLEC) Training and Certification
    In an effort to make special commissions available to tribal, 
state, and local law enforcement, the BIA encourages cross-
commissioning so that Federal, tribal, and state authorities can make 
arrests for each jurisdiction. For instance, BIA offers qualified 
tribal and state law enforcement officers Federal Special Law 
Enforcement Commissions (SLEC) so they can enforce federal law. This 
closes loopholes and allows police to focus on investigating the crime 
instead of sorting out jurisdictional details, which can be done later 
with the assistance of legal counsel.
    Supplemental training is provided by the BIA and, more recently, 
through the offices of the United States Attorneys to utilize both 
tribal and state law enforcement officers in Federal and tribal 
policing as authorized under the Law Enforcement Reform Act. The Office 
of the Solicitor and the United States Department of Justice offices 
determine extension of Federal Tort Claim coverage as authorized under 
the Reform Act. For the Committee's information, please find attached 
Table C, which illustrates the SLEC count for all District Locations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Tribal Court Jurisdiction
    The Department's view is that Congress, consistent with the 
constitution, has the authority to establish tribal court jurisdiction 
over crimes committed by non-Indians. Though most felonies and serious 
misdemeanors committed by non-Indians are subject to prosecution at the 
Federal level, there is no effective way for tribes to address the more 
numerous misdemeanor crimes committed by non-Indians. The Federal 
Government has jurisdiction over the criminal acts of non-Indians in 
Indian country under the Assimilated Crimes Act. When a non-Indian 
commits an offense in Indian country, including a misdemeanor, State 
law covering the offense is assimilated into federal law and can be 
charged by the United States Attorney. Providing tribes with increased 
authority and jurisdiction to arrest and adjudicate non-Indians for 
crimes committed within Indian country would require additional study 
of each tribe's capacity to take on the added jurisdictional 
responsibility to do so effectively.
Tribal Sentencing Authority
    Current Federal law provides a ceiling on tribal court penal 
authority to sentence of no longer than one year and up to a $5,000 
fine for each offense. Some tribes currently sentence tribal offenders 
concurrently for more than one offense which, in the aggregate, can 
total more than one year. There are at least two major challenges faced 
by BIA and tribal corrections programs with the care of inmates subject 
to long term sentences for non-Federal felony crimes committed in 
Indian country:

        1.) There is limited detention space on or near most Indian 
        communities. There are also limited funds to contract for 
        detention bed space in a non-tribal or non-BIA facilities. 
        Extending sentences for longer than one year will result in 
        increased costs to both the BIA and tribal governments.

        2.) Not all tribal courts have an effective appellate process. 
        Thus, a defined, effective, consistent, and transparent 
        appellate process is important to ensure civil rights are 
        protected and the tribes are not unduly subjected to habeas 
        corpus claims in Federal court.

    Mr. Chairman and members of the Committee, I thank you for 
providing the Department of Interior's Bureau of Indian Affairs the 
opportunity to comment on the specific issues related to Law and Order 
in Indian Country. We will continue to work closely with the Committee 
and your staff, tribal leaders, and our Federal partners. The Bureau of 
Indian Affairs will be happy to answer any further questions you may 
have.
                                 ______
                                 
 Prepared Statement of William R. Rhodes, Governor, Gila River Indian 
                               Community

I. Background
    The Gila River Indian Community (``the Community'') is located in 
Maricopa and Pinal Counties in Arizona. The Community shares its 
borders with the City of Phoenix, Chandler, Coolidge, Casa Grande, 
Maricopa and Queen Creek. The Community has entered into mutual aid law 
enforcement agreements with some of these communities to address the 
unique conditions of the Community. The Community's total enrollment is 
19,000 members. The jurisdiction of the Community extends over 
approximately 600 square miles of Reservation land. Interstate 10 cuts 
across the Reservation. The Community has a fully developed criminal 
justice system which employs over 250 people and includes the Community 
Court, Law Office, Police Department, Probation Department and 
Detention Facilities. The following is a brief background on each 
Community department:

        A. Community Court. There are a total of eight (8) Community 
        Court Judges. In 2003, the Community Court moved into a new 
        state of the art court building with six (6) courtrooms that 
        include video monitoring and recording systems. The Court has 
        the space to accommodate jury trials and appellate hearings. 
        The Community Court building is 31,450 square feet. The 2007 
        operating budget for the Court was $5.2 million dollars, 
        including $37,000 dollars from two (2) state grants. The Court 
        does not receive federal funding.

        B. Law Office--Criminal Division. The Law Office-Criminal 
        Division employs ten (10) licensed attorneys as prosecutors and 
        ten (10) support staff to represent the Community in 
        prosecuting crime, civil code enforcement, child dependency 
        cases and delinquency cases in the Community's Courts.

        C. Police Department. Until 1998, the Community relied on the 
        Bureau of Indian Affairs (BIA) for law enforcement services. 
        Since then, the Community has entered into a 638 contract for 
        law enforcement services and the Gila River Police Department 
        has grown. It now employs 90 sworn police officers. Gila River 
        Police officers: (1) are commissioned to enforce the laws of 
        the Gila River Indian Community; (2) are Arizona post certified 
        officers; and (3) are Special Law Enforcement Certified by the 
        BIA law enforcement. Thus Gila River Police Officers can 
        enforce tribal, federal and state laws. The operating budget 
        for the Police Department in 2007 was $13.0 million dollars 
        with a federal contribution of $3 million dollars.

        D. Probation Department. The Probation Department employs 
        nineteen (19) probation officers and is comprised of three (3) 
        divisions: adult, juvenile and diversion probation programs. In 
        addition to the regular probation programs, the Probation 
        department administers diversion programs for juveniles, 
        including teen mentoring, teen court and drug court programs.

        E. Detention Facilities. The Department of Rehabilitation and 
        Supervision manages two (2) detention facilities located within 
        the Reservation. The adult detention facility is 97,000 square 
        feet, employs 97 staff members and can house 224 inmates. The 
        Juvenile Detention facility is 35,000 square feet, employs 56 
        staff members and can house 106 juveniles. Both detention 
        facilities were constructed in 2001. The construction cost for 
        both facilities was $37.8 million dollars, with a federal 
        contribution of $9.8 million. In 2007, the operating budget for 
        both facilities was $9.0 million dollars, including a federal 
        contribution of $3.1 million dollars.

II. Tribal Justice Issues
    The following sections will address the Community's concerns 
regarding tribal justice issues.

        A. Federal Accountability--Indian country statistics should 
        hold more weight in Assistant United States Attorney (AUSA) 
        evaluations. AUSA's should not solely be evaluated on the 
        number of successful prosecutions--instead, the number of cases 
        they prosecute and the cases they decline should also be 
        considered. The Special United States Attorney (SAUSA) Program 
        should also be re-examined. At one time, this program allowed 
        tribal attorneys to prosecute cases in federal court. If re-
        instituted, the program needs to provide training to tribal 
        attorneys and perhaps funding.

        B. Jurisdictional Issues--Jurisdiction is always a complex 
        problem in Indian Country. Indian or non-Indian status of both 
        the victim and the offender determine whether a crime falls 
        under tribal, state or federal jurisdiction. Crimes committed 
        by non-Indians that do not rise to the level of federal 
        prosecution, like sexual assault and domestic violence, are 
        rarely prosecuted. While technically there may exist a court of 
        justice for every crime committed in Indian country, the 
        reality is non-Indian offenders almost always go unpunished. 
        Further, for crimes committed by Indian offenders, tribes are 
        limited by the Indian Civil Rights Act which restricts 
        punishment to one (1) year for any offense. The Community 
        proposes two (2) potential solutions to protect victims from 
        domestic violence and sexual assault when committed by a non-
        Indian. First, the Indian Civil Rights Act needs to be amended 
        so that tribal courts may punish more than one year for an 
        offense. Second, the Community urges Congress to consider 
        allowing Indian tribes to exercise personal jurisdiction over 
        non-Indians and subject matter jurisdiction over these specific 
        crimes because of the urgent need to protect victims.

        C. Detention Facilities--In general, detention facilities in 
        Indian Country need to be evaluated. The Community has invested 
        substantial tribal resources in both a juvenile and adult 
        facility, however, problems still remain. The Community faces a 
        severe problem with housing serious offenders and/or gang 
        members with less serious offenders. Housing serious offenders 
        with misdemeanor offenders often facilitates criminal contacts, 
        increases crime and strains already limited detention facility 
        staff. A regional detention facility for more serious offenders 
        in Indian Country should be established. Additionally, funding 
        for adequate staff and medical services is much needed. The 
        Community provided most of the funding for the creation of its 
        detention facilities and provides most of the funding for its 
        continued support, but increasing crime strains tribal 
        resources and hinders adequate services.

        D. Law Enforcement--There are numerous law enforcement 
        challenges in Indian Country including lack of funding and 
        resources. The Community employs approximately 90 sworn 
        officers. About 20 officers are on duty per shift for the 
        entire 600 square miles of the Reservation. With the increase 
        in crime in Indian Country the need for support from the 
        Federal Bureau of Investigation (FBI) is increasingly 
        important. Although the Gila River Police Department works 
        cooperatively with FBI Agents on the investigation of Major 
        Crimes, the reduction of FBI Agents greatly hinders the 
        investigations, thereby affecting the number of cases that are 
        federally prosecuted. As an alternative, if the presence of FBI 
        Agents in Indian Country continues to decrease, there should be 
        an increase in advance training and resources to tribal police 
        departments.
        In addition, the Community along with many other Indian tribes 
        is experiencing an increase of gang activity within their 
        reservations. Indian tribes struggle to deal with the criminal 
        conduct and drug activities that often accompany gang presence. 
        Tribal law enforcement departments investigate drive by 
        shootings involving gang members. The crime of drive by 
        shooting is not included as an enumerated offense under the 
        Major Crimes Act. The fact that the drive by shooting is not a 
        federal offense frustrates law enforcement and tribes because 
        the penalty under tribal law is minimal when weighed against 
        the criminal conduct that often impact whole Indian families. 
        Therefore, the Community encourages Congress to amend the Major 
        Crimes Act to include the crime of drive by shooting.

        E. Drug Trafficking and Illegal Immigration--Drug trafficking 
        and illegal immigration are serious crimes that affect the 
        Community, however cooperative relationships and investigations 
        with federal agencies, such as the Drug Enforcement Agency 
        (DEA) and the Immigration and Customs Enforcement (ICE) 
        departments to combat these problems is lacking. Tribal law 
        enforcement departments are expected to investigate large drug 
        cases without federal support or assistance, which often 
        results in the U.S. Attorney denying the prosecution of these 
        cases because of high threshold amounts or the manner in which 
        the investigation was conducted was inconsistent with the 
        federal standards. These cases are left to be handled by tribal 
        prosecutors who can only prosecute Indian defendants and 
        request punishment for only 365 days of detention and/or a 
        $5,000 dollar fine. Non-Indians transporting and/or selling 
        drugs in Indian Country take full advantage of the 
        jurisdictional issues and nominal consequences.
        The Community faces problems with illegal immigration that tax 
        Community resources. Tribal ranger resources are expended to 
        deal with considerable illegal dumping and trespassing. 
        Additionally, when tribal law enforcement encounters illegal 
        immigrants, sometimes they must wait substantial amounts of 
        time for ICE to respond. Therefore, the need for joint 
        operations and cooperation between tribal law enforcement and 
        federal agencies is imperative to prevent Indian tribes from 
        further expending their already scarce resources and also in 
        the interest of tribal, local and federal homeland security 
        goals.

        F. Data Collection/Technology. As a response to the Adam Walsh 
        Act passed by Congress in 2006, the Community passed an 
        ordinance mandating sex offenders located within the 
        Reservation to register with the Gila River Police Department. 
        In addition, the Police Department was also selected by the 
        Department of Justice for an Amber Alert in Indian Country 
        pilot project. It is evident from the increase of 
        responsibilities placed upon tribal police departments that the 
        need for technology and access to databases and the accurate 
        collection of crime statistics is imperative to the ability of 
        tribal law enforcement to respond to crime in Indian Country. 
        Tribal law enforcement departments lack basic access to the 
        national and/or state database systems that track important 
        information such as warrants, investigative leads, and stolen 
        information. This inability to access and obtain information 
        compromises officer safety and hinders an accurate response to 
        crime in Indian Country. In response to this problem, the Gila 
        River Police Department has entered into mutual aid agreements 
        for inoperability and access to these databases. However, 
        inadequate technological support, in the form of computer aided 
        dispatch systems, prevents law enforcement from fully 
        maximizing these databases.
        Funding is also desperately needed for the collection and 
        examination of evidence. The Community, like many tribes, lacks 
        a facility for processing evidence like fingerprints and DNA 
        evidence. A lack of funding prevents law enforcement from 
        sending all but the most important evidence to state and 
        federal labs. Tribal prosecutions are hindered and frequently 
        dismissed by the lack of access to these resources.
III. Conclusion
    The Community commends the Committee for focusing attention on the 
issue of law enforcement in Indian Country. We look forward to working 
with the United States Senate to support the legislative changes 
necessary to successfully combat crime in Indian Country.
    Thank you for this opportunity to submit a written statement on 
behalf of the Community.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                          Hon. Diane Humetewa

    Question 1. Your testimony states that there are no jurisdictional 
gaps in Indian Country, and that ``for every crime in Indian Country, 
there is a court of justice.'' Do you believe that there are gaps in 
enforcement? Please discuss the Department's efforts to prosecute 
reservation-based misdemeanor crimes committed by non-Indians with 
Indian victims.
    Answer. The Department takes seriously all crimes committed in 
Indian Country and recognizes the obligation to appropriately prosecute 
those crimes. The cases the Department prosecutes in Indian Country 
represent some of our most significant and challenging work. 
Approximately 25 percent of all violent crimes that U.S. Attorneys 
investigate nationally occur in Indian Country. In addition, in FY 
2006, the Department's efforts in Indian Country increased across the 
board. For example, in FY 2006, the Department filed 606 cases against 
688 defendants in Indian Country, which is nearly 5 percent higher than 
the average since 1994. In FY 2006, 82 cases went to trial, 13.8 
percent more than the average of cases each year since 1994. The 
conviction rate for Indian Country prosecutions in FY 2006 was 89.4 
percent, slightly higher than the 86.2 percent average since 1994. 
Eighty percent of those guilty of violent crime in Indian Country were 
sentenced to prison in FY 2006. The number of defendants convicted of 
violent crimes receiving sentences greater than 61 months has also 
increased from 31 percent on average to 36 percent in FY 2006.
    While several agencies have law enforcement responsibility in 
Indian country, they continue to work together to fight crime. For 
example, first responders may consist of state, local or tribal law 
enforcement officers. Those officers often secure crime scenes, while 
assisting victims of crime and restoring order to volatile situations. 
If the crime is a major crime, those first responders will often 
transfer the crime scene to federal agents upon their arrival at the 
scene. Those federal agents then collect and maintain any evidence 
while completing any required additional investigation in preparation 
for prosecution by the appropriate United States Attorney's Office.

    Question 2. Your testimony indicates significant constitutional 
concerns regarding tribal court jurisdiction over non-Indian 
defendants. Please provide the Department's views or concerns, if any, 
with constitutional rights afforded to Indian defendants in tribal 
courts.
    Answer. The Department's testimony did not address the general 
issue of constitutional rights afforded to Indian defendants in tribal 
courts, but rather described particular concerns that might arise, 
depending on the specific legislative proposal, with respect to 
legislation that would give tribal courts jurisdiction over non-
Indians.
    The constitutional rights afforded to Indian defendants in tribal 
courts are implemented by the Indian Civil Rights Act of 1968 
(``ICRA''), 25 U.S.C. Sec. Sec. 1301-1303. Congress enacted ICRA to 
provide individual Indians with most of the protections guaranteed by 
the Bill of Rights while also promoting self-government by federally 
recognized Indian tribes. See Santa Clara Pueblo v. Martinez, 436 U.S. 
49, 57, 60-63 (1978). The rights guaranteed by ICRA include the Fourth 
Amendment's protection against unlawful search and seizure; the Fifth 
Amendment rights not to be placed in double jeopardy or required to be 
a witness against oneself; the Sixth Amendment rights to be informed of 
the nature of the accusation, to confront witnesses, and to be tried by 
jury; the Eighth Amendment protections against excessive bail, fines, 
or cruel and unusual punishment; and the Fourteenth Amendment rights to 
equal protection and due process of law. However, ICRA guarantees 
assistance of counsel only at a defendant's own expense (though many 
tribes apparently do provide appointed counsel). See 25 U.S.C. 
Sec. 1302. ICRA also provides that habeas corpus review is available to 
any person detained by an Indian tribe. See id. Sec. 1303.
    Tribal courts have retained their sovereign authority to prosecute 
criminal offenses committed by Indians within their territory. See 25 
U.S.C. Sec. 1302(7); United States v. Wheeler, 435 U.S. 313, 323-325 
(1978). In 1990, Congress amended ICRA to ``recognize[] and affirm[]'' 
``the inherent power of Indian tribes . . . to exercise criminal 
jurisdiction over all Indians.'' 25 U.S.C. Sec. 1301(2). A tribal court 
thus has jurisdiction not only over the tribe's members, but also over 
members of other federally recognized tribes who commit crimes within 
its territory. See 25 U.S.C. Sec. 1301(4) (defining ``Indian'' as any 
person subject to federal jurisdiction as an Indian under the Major 
Crimes Act, 18 U.S.C. Sec. 1153); United States v. Antelope, 430 U.S. 
641, 646-647 & n.7 (1977) (federal criminal jurisdiction under the 
Major Crimes Act does not apply to ``many individuals who are racially 
to be classified as `Indians,' '' but rather to enrolled members of 
tribes whose official status has not been terminated). The Supreme 
Court has upheld Congress' constitutional authority ``to permit tribes, 
as an exercise of their inherent tribal authority, to prosecute 
nonmember Indians.'' United States v. Lara, 541 U.S. 193, 210 (2004). 
It is important to note that the current framework for tribal 
jurisdiction is premised on the limitation of a statutory maximum 
punishment of one year of incarceration.

    Question 3. What percentage of Indian Country criminal cases were 
declined by U.S. Attorneys offices nationwide in 2006 and 2007? Please 
indicate the general reasons for declinations, and if possible 
attribute percentages to those reasons. What in your opinion needs to 
be done to reduce the number of declinations?
    Answer. Law enforcement in Indian Country creates unique 
challenges. The cases presented are as diverse as the tribes located in 
Indian Country. Criminal cases arising in Indian Country are most often 
reactive cases. Reactive cases are those cases in which a crime has 
occurred and the investigation is in response to the criminal activity 
and generally requires immediate action by law enforcement officials. 
The typical federal case involves a proactive investigation. A 
proactive investigation is an investigation in which various law 
enforcement tools may be used, such as: wiretaps, search warrants, 
grand jury proceedings, cooperating informants, and undercover 
operations; to successfully build a case over time. As such, Indian 
Country prosecutions are more closely related to the types of cases 
handled by state and local prosecutors.
    The Department is committed to improving data collection and 
analysis in Indian Country and increasing transparency. At this time we 
do not have statistics that we believe accurately reflect the rate of 
declinations in Indian Country. Case closures occur for a number of 
reasons. For example, a case may be closed after it has been prosecuted 
by tribal or state officials, a case may be closed while waiting for 
additional investigative matters to occur or case closure may occur 
when there is no prosecutable violation under federal law. The 
Department is working to develop improved data regarding the ultimate 
disposition of cases including case declinations and case closures.

    Question 4. Do U.S. Attorneys offices have a consistent policy on 
how they accept criminal cases? For example, does every office accept 
cases or investigations filed by tribal police officers?
    Answer. Department of Justice policy does not mandate or restrict 
the intake of cases from a tribal agency. Many offices currently accept 
cases directly from tribal law enforcement officers. As you know, 
tribes come in a variety of sizes and cultures; but the police agencies 
within those tribes reflect that same diversity. Each U.S. Attorney's 
Office is in a unique position to observe and best evaluate the 
appropriate method of intake from state, local, and tribal law 
enforcement partners.

                                  <all>

</pre></body></html>
